                       art




      INSPECTOR GENERAL, DOD, OVERSIGHT OF THE
 ARMY AUDIT AGENCY AUDIT OF THE ARMY GENERAL FUND
      FINANCIAL STATEMENTS FOR FYs 1997 AND 1996
                                        .




Report Number 9% 102                           April 7, 1998




             Office of the Inspector General
                 Department of Defense
     Additional Information and Copies

     To obtain additional copies of this audit report, contact the Secondary Reports
     Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
     (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932, or visit the Inspector
     General, DOD, homepage at: www.dodig.osd.mil.

     hggestions for Future Audits

     To suggest ideas for or to request future audits, contact the Planning and
     Coordination Branch of the Analysis, Planning, and Technical Support Directorate
     at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
     can also be mailed to:
                        OAIG-AUD (ATI’N: APTS Audit Suggestions)
                        Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                        Arlington, VA 22202-2884

     Defense Hotline

     To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
     4249098; by sending an electronic message to Hotline@dodig.osd.mil; or by
     writing to the Defense Hotline, Pentagon, Washington, DC 20301-1900. The
     identity of each writer and caller is fully protected.




                       Army Audit Agency
GAO                    General Accounting Office
IG                     Inspector General
                                 INSPECTOR    GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                                ARLINGTON. VIRGINIA 22202




                                                                             April 7, 1998
MEMORANDUM FOR UNDER SECRETARYOF DEFENSE (COMPTROLLER)AND
                 CHIEF FINANCIAL OFFICER
               DIREEXCB DEFENSE FINANCE AND ACCOUNTING

SUBJECT: Inspector General, DoD, Oversi t of the Army Audit Agency
         Audit of the Army General Func?Financial Statements for FYs 1997
         and 1996 (Report No. 98-102)

        We are providing this audit report for your information and use and for transmittal
to the Director, Office of Management and Budget. It includes our endorsement of the
Army Audit Agency (AAA) disclaimer of opinion on the Army General Fund Financial
Statements for FYs 1997 and 1996, alo with the AAA report, “Army’s Principal
Financial Statements for Fiscal Years 1%7 and 1996: Audrtor’s Re rt.” An audit of the
Army General Fund Financial Statements is required by the “Chief I?inancial Officers Act
of 1990,” as amended by the “Federal Financial Management Act of 1994.“’ Since this
report contains no ftiings or recommendations, written comments are not required.
       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard B. Bird, Audit Program Director, at (703) 604-9145
(DSN 664-9145, e-mail rbird@dodig.osd.mii), or Mr. John J. Vietor, Audit Project
Manager, at (317) 510-3855 (DSN 699-3855, e-mail jvietor@dodig.osd.mil). See
Appendix D for the report distribution. The audit team members are listed inside the back
cover.



                                         ~&Rh
                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                             for Auditing
                          Office of the Inspector General, DOD

Report No. 98-102                                                       April 7,1998
   (Project No. 7FI-2031 .Ol)

                 Inspector General, DOD, Oversight of the
            Army Audit Agency Audit of the Army General F’und
               F‘inancial Statements for FYs 1997 and 1996

                                 Executive Summary

Introduction. An audit of the Army General Fund financial statements is required by
Public Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
as amended by Public Law 103-356, the “Federal Financial Management Act of 1994,”
October 13, 1994. We delegated the audit of the Army General Fund Financial
Statements for FYs 1997 and 19% to the Army Audit Agency. This report provides
our endorsement of the Army Audit Agency disclaimer of opinion on the Army
General Fund Financial Statements for FYs 1997 and 1996, along with the Army Audit
Agency report, “Army’s Principal Financial Statements for Fiscal Years 1997 and
1996: Auditor’s Report. n

Audit Objective. Our objective was to determine the accuracy and completeness of
the Army Audit Agency audit of the Army General Fund Financial Statements for
FYs 1997 and 1996. See Appendix C for a discussion of the audit process.

Audit Results. The Army Audit Agency report, “Army’s Principal Financial
Statements for Fiscal Years 1997 and 1996: Auditor’s Report,” February 13, 1998,
stated that the Army Audit Agency was unable to express an opinion on the reliability
of the Army General Fund Financial Statements for FYs 1997 and 1996. We concur
with the Army Audit Agency disclaimer of opinion; our endorsement of that disclaimer
is at Appendix A. The Army Audit Agency report is at Appendix B.
Table of Contents


Executive Summary                                                 i
     Appendix A. Inspector General, DOD, Endorsement Memorandum
                   ages l-2)
     Appendix B. % my Audit Agency Report
                 “Army’s Principal Financial Statements for
                 Fiscal Years 1997 and 1996: Auditor’s Report”
                 (#;Ij-.=-s
     Appendix C.
     Appendix D. Report Distribution
Appendix A. Inspector General, DOD,
            Endorsement Memorandum
                                 INSPECTOR      GENERAL
                                 DEPARTMENT     OF DEFENSE
                                   400 ARMY   NAVY   DRIVE
                                ARLINGTON,    VIRGINIA 22202




                                                                      February 27, 1998

MEMORANDUM          FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                           AND CHIEF FINANCIAL OFFICER
                        DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                           SERVICE

SUBJECT:    Endorsement of the Disclaimer of Opinion on the FY 1997 Army General
            Fund Financial Statements (Project No. 7FI-2031)


        The Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, requires fmancial statement audits by the Ins    tors General.
We delegated to the Army Audit Agency (AM) the audit of the FYs 1r 97 and 1996
Army General Fund financial statements. Summarized below are the AAA disclaimer
of opinion on the FYs 1997 and 1996 Army General Fund financial statements and the
results of our review of the AAA audit. We endorse the disclaimer of opinion
expressed by the AAA (see the Enclosure).

       Disclaimer of Opinion. The AAA disclaimer of opinion on the FYs 1997 and
 1996 Army General Fund financial statements, dated February 13, 1998, states that the
AAA was unable to express an opinion on the financial statements. We concur with
the AAA disclaimer of opinion for the reasons summarized below.

        o Accounting and related systems were not designed for financial statement
reporting and consequently could not produce reliable and auditable financial statement
data.

        o The processes used to compute and report the amounts for material lines on
the financial statements did not produce reliable and auditable numbers.

        Inadequate accounting systems resulted in disclaimers of opinion for the
FYs 1991 through 1996 Army principal financial statements. Inadequate accounting
systems continued to exist in relation to the FY 1997 financial statements.

        Internal Controls. Internal controls did not ensure that the FYs 1997 and 1996
Army General Fund financial statements contained no material misstatements. The
Army and the Defense Finance and Accounting Service have recognized many of the
financial reporting weaknesses and reported them in their FY 1997 Annual Statements
of Assurance. Details on these matters and on compliance with laws and regulations
will be discussed in a separate report.

        Compliance With Laws and Regulations. The AAA also identified areas of
noncompliance with laws and regulations. Under the Federal Financial Management
Improvement Act of 1996 and OMB Bulletin No. 93-06, Addendum 1, “Audit
Requirements for Federal Financial Statements,” January 16, 1998, the AAA work
disclosed that financial management systems Qd not comply with Federal financial
management system requirements; applicable Federal accounting standards; and the
United States Government Standard General Ledger at the transaction level.
                                                                                        2



        Review of Army Audit Agency Work. To fulfill our responsibilities for
determining the accuracy and completeness of the independent work conducted by the
AAA, we reviewed the approach and planning, and monitored the progress at the key
points. We also performed other procedures deemed necessary to determine the
fairness and accuracy of the approach and conclusions.

        We conducted our review of the MA work on the Arm General Fund
financial statements from August 27, 1997, to February 27, 19J 8, in accordance with
generally accepted Government auditing standards. We found no indication that we
could not rely on the AAA disclaimer of opinion or its related evaluation of internal
controls and compliance with laws and regulations.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditmg


Enclosure
Appendix B. Army Audit Agency Report
     Army’s Principal
Financial Statements
      for Fiscal Years
       1997and1996


          Auditor’s Report




             13 February 1998
      Audit Report: AA 98-104
                            DEPARTMENT        OF THE ARMY
                                U.S. ARMY AUDIT AGENCY
                               Office of the Auditor General
                                   3101 Park Center Drive
                                Alexandria, VA 22302-1596




                                   13 February         1998




Acting Secretary of the Army


This is the auditor’s report which summarizes the results of our efforts to
audit the Army’s Principal Financial Statements for the fiscal years
ended 30 September 1997 and 1996. We performed our work pursuant
to the Chief Financial Officers Act of 1990 as expanded by the
Government Management Reform Act of 1994.

We were unable to express an opinion on the financial statements
primarily because of inadequate accounting systems and incomplete or
unauditable supporting records. We were unable to apply other auditing
procedures in these areas to satisfy ourselves as to the fairness of the
data presented.

Brief discussions of our results and conclusions are in the main part of
this report. We will present more detailed discussions in several
supporting audit reports to be published separately (see Annex C).

I appreciate   the courtesies and cooperation           extended to us during the
audit.




                                  FRANCIS E. REARDON,              CPA
                                  The Auditor General
                                                         CONTENTS



                                                                                                                                                         Page



Auditor’s            Report ... .. ... ....... .... ... ... .... ...... ... ... ...... .... ... ...... .... ... ..... ... .... 5



Annexes

           A     -     Audit Scope and Methodology                                   . . . . . . .. . .. . .. . .. . . . . . . . . . . . .. . . . .. . . . . . . 17

           B -         Financial         Statements               and Notes . . . .. . .. . .. . .. . . . . .. . . . . . . . . . . .. . .. . . . 19

           C-          Supporting           Audit Reports . . . . .. . .. . .. . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . .. . . . 60

           D-          Others Receiving Copies of the Report . .. . .. . . . . . . . . .. . . . . . . . . . . . .. 61




Amy’s Principal Financial SIatemene for Fiscal Years 1997 and 19% (AA 98104)                                                                    Contents/Page 1
                                      AUDITOR’S                  REPORT




my’s   Principalf inancblStatements
                                forFiscalYearsI 997 and 19% IM 98-l04     AudiWs RepodPage 3
                                                 DEPARTMENT             OF THE ARMY
                                                      US. ARMY AUDIT AGENCY
                                                      Office of the Auditor Geneml
                                                          3101 Park Center Drive
                                                      Alexandria, VA 223024596




Acting Secretary of the Army


As delegated by, and in coordination with, the Inspector General, DOD,
we were engaged to audit the Army’s Statements of Financial Position as
of 30 September 1997 and 1996, and the related Statements of
Operations and Changes in Net Position for the fiscal years then ended.
Pursuant to the Chief Financial Officers Act of 1990, as expanded by the
Government Management Reform Act of 1994, the Army prepared these
financial statements and is responsible for them.

We were unable to express an opinion on these financial statements.
Inadequate accounting systems, insufficient audit trails, and procedural
problems resulted in the lack of reliable amounts reported for several
types of assets, liabilities, and expenses. These conditions prevented us
from using any practical methodology to conduct audit work of sufficient
scope to enable us to express an opinion on these financial statements.
Financial data in the Overview and the Supplemental Financial and
Management Information sections of the Army’s FY 97 Annual Financial
Report was derived from the same sources as the financial statements
and also may not be reliable.

Internal controls weren’t fully effective to ensure there were no material
misstatements in the financial statements. The Army and the Defense
Finance and Accounting Service have recognized many of the associated
financial reporting weaknesses and reported them in their FY 97 annual
assurance statements.

Our limited audit work didn’t identify any instances of unreported
failures to comply with laws and regulations related to the Army’s
financial statements. However, the financial management systems that
support the Army’s financial statements for fiscal years 1997 and 1996
did not meet the requirements of the Federal Financial Management
Improvement Act of 1996. Specifically, these systems did not
substantially comply with Federal financial management system
requirements, applicable Federal accounting standards, and the
U.S. Government Standard General Ledger at the transaction level.

In this report, we describe the reasons for our disclaimer plus other
reporting problems. We also cite some progress areas. We will issue a
separate report on internal controls and compliance with laws and
regulations.

Army’s f’rinciprl Financial Statements for Fircal Years 1997 and 19% MA 98-104)       Auditor’s ReporVPage 5
Although there were significant limitations to the scope of our audit
work, we performed our work to the extent possible in accordance with
generally accepted government auditing standards and Office of
Management and Budget Bulletin 93-06 (Audit Requirements for Federal
Financial Statements) as amended.


                                          Reasons                  for Disclaimer

Our audit work showed that the Army continues to experience major
financial reporting problems which prevented us from rendering an
opinion on its financial statements. Specific reasons for our disclaimer
were inadequate accounting systems and audit trails, and-unreliable
amounts for several material lines in the financial statements. The Army
and the Defense Accounting Service are working on these problems, but
complete solutions aren’t likely for several years.

Building on prior year audit results, we performed audit work on major
portions of the reported assets and liabilities. Deficiencies in accounting
systems prevented us from auditing reported expenses. Accounting
systems deficiencies and procedural problems also prevented us from
verifying the quantities and values for much of the Army’s assets and
liabilities. The reasons for our disclaimer are generally the same as we
reported last year (Auditor’s Report on the Army’s Principal Financial
Statements for Fiscal Years 1996 and 1995, Audit Report: AA 97-133)
and are summarized in the following paragraphs. Details and specific
recommendations are in separate audit reports.


ACCOUNTING SYSTEMS

The primary reason we couldn’t render an opinion on the Army’s
financial statements is that the accounting systems-and the systems
which interface with the accounting systems (such as the Army’s logistics
systems)-weren’t designed for financial statement-type reporting and
therefore can’t produce reliable and auditable financial statements. The
Defense Accounting Service owns and operates most of the systems used
to account for the Army’s resources, and it is working on a new _
accounting system -the Defense Joint Accounting System-which is
intended to resolve many of the problems with existing systems.
However, the new system won’t be fully fielded for several years.
Accordingly, we cannot assess the extent to which it will resolve existing
problems.




~rrny’s Principal Financial Sntcmentr for Fircal Years 1997 and   19%MA 98-l 04)    Audit&r Report/Page6
FINANCIAL STATEMENT AMOUNTS

The processes used to compute and report the amounts for several
material lines in the financial statements didn’t produce reliable and
auditable numbers. We summarize the most significant problems we
found in the following paragraphs.

Fund Balance With Treasury.      We weren’t able to attest to the
reasonableness of the reported total for fund balance with Treasury
(about $30.6 billion as of 30 September 1997). Treasury reports showed
about $1.4 billion of unresolved discrepancies between Treasury records
and disbursing officer statements of accountability for checks issued. If
all the discrepancies were resolved in the direction currently indicated,
the Army’s reported amounts for fund balance with Treasury and for
appropriated capital would be understated by $1.4 billion. Data was not
available to determine the extent of any such discrepancies for FY 96.

Property, Plant and Equipment, Net. We weren’t able to attest to the
reported value for property, plant and equipment, net (about
$132.0 billion and about $124.9 billion as of 30 September 1997 and
1996 respectively). These values were misstated by unknown, but
probably material, amounts because of reporting problems related to the
following sub-elements which account for over 98 percent of the total
amounts reported for this line.

       l    The reported values for military equipment were misstated by
            unknown amounts because of several problems.

             - Prices used to value this equipment weren’t current. The total
               understatement for the sample of items we checked was more
               than $10 billion for FY 97 and the account was adjusted
               accordingly. However, the account balance was still misstated
               by an unknown amount at the end of the reporting period.

             - Reported values didn’t include the value of items accepted at
               contractors’ plants but not yet received by the using unit.

             - Contractor reports-used to account for equipment held by
               contractors-weren’t complete or accurate.

             - There was no assurance that all units reported their property or
               that values were based on DOD asset reporting thresholds.

             - As stated in the notes to the financial statements, the Army
               values its military equipment at latest acquisition cost or
               standard prices rather than actual cost.



Army’5 Principal Financial S1amnen15   for   Fkal Year5 1997 and 1996 IM 98-l 04   Audit&5 RepotVPage 7
      l    The reported values for real property (land, structures, facilities,
           and leasehold improvements) were misstated by unknown
           amounts because Army and DOD reporting guidance wasn’t clear
           and wasn’t consistently implemented. Specific problems included
           the duplicate reporting of commissaries and nonappropriated fund
           assets, and the incomplete reporting of tenant activity
           construction. During FY 97 the Real Property Integrated Process
           Team developed an extensive set of proposals on real property
           accounting to meet the requirements of the Chief Financial Officers
           Act, but these proposals have not been approved or issued as
           official policy. For FY 96 we also stated that real property assets
           were understated by an unknown amount because the Army’s
           financial interest in State National Guard facilities wasn’t recorded
           as an asset. Although the Army’s financial interest wasn’t
           recorded for FY 97 either, a definitive policy on reporting this
           interest was not yet clearly defined.

       l   The reported values for construction in progress were misstated by
           unknown amounts because the portion pertaining to govemment-
           furnished materiel was based on contractor reports that weren’t
           accurate or complete. For FY 96 we also reported that the
           $1.7 billion for Army National Guard construction in progress
           included an unknown amount for completed projects. The
           National Guard agreed to remove completed projects and reported
           only about $491 million for construction in progress for FY 97.
           However, we have not yet verified that all completed projects have
           been removed.

War Reserves.     The reported values for war reserves (about $46.8 billion
and about $35.8 billion as of 30 September 1997 and 1996 respectively)
were misstated by unknown, but probably material, amounts because
the assets weren’t properly valued. The values were overstated by
unknown amounts because excess assets and assets in an unknown
condition were valued at full standard price. War resemes were reported
as inventory, net in the Army’s Statement of Financial Position as of
30 September 1996 (and we reported last year that the total amount in
that account was not reliable). Although we consider this change in
asset classification an improvement, the valuation problems for war
reserve assets remain unresolved.

Other Entity Assets.    The reported values for other entity assets ($0 and
about $5.5 billion as of 30 September 1997 and 1996, respectively) were
misstated by unknown amounts. The FY 96 amount was derived from
contractor reports which weren’t complete and didn’t include accurate
values. We previously recommended that the Army not use source data
that was known to be unreliable. Therefore, the Army didn’t include this
data for FY 97.


&my’s Principal Financial Sta~emcntrfor Fiscal Yean   1997 md 1996 &A 98104   Auditor’s RcporVPage8
Accounts    Receivable.  The reported amount for accounts receivable
(about $1.3 billion as of 30 September 1997) was not reliable, and
existing accounting systems and procedures prevented the determination
of reliable account balances. The Defense Accounting Service didn’t use
the Army’s general ledger as a source for the reported balances as
required. Instead, it made unsupported corporate-level adjustments to
force the general ledger to agree with fund status data. In addition, the
accounting systems didn’t have subsidiary ledgers for accounts
receivable that could be used to help verify the reported amounts. We
didn’t attempt to audit accounts receivable reported as of 30 September
1996 (about $1.2 billion) but that amount also may not be reliable.

Accounts Payable. The reported balances of accounts payable covered
by budgetary resources for Federal and non-Federal entities (about
$2.3 billion and about $3.8 billion as of 30 September 1997and 1996
respectively) weren’t reliable, and existing accounting systems and
procedures prevented the determination of reliable values for these
accounts. Accounts payable frequently weren’t recorded (i) when goods
or services were received, (ii) for yearend unpaid invoices on Defense-
administered Army contracts, and (iii) for progress payment holdbacks.
In addition, the Defense Accounting Service made corporate-level
adjustments to the Army’s accounts payable which, because of
procedural problems, distorted rather than improved the reported
numbers. The adjustments were made to force the general ledger to
equal the funds status data which was considered to be more reliable.
But even if it were more reliable, the adjustment process didn’t maintain
the integrity of the division of accounts payable status data between
Federal and non-Federal.

Other Liabilities.    We could not attest to the amounts reported for other
non-Federal liabilities not covered by budgetary resources (about
$27.7 billion and about $16.1 billion as of 30 September 1997 and 1996
respectively). The Army increased its reporting of these liabilities for
FY 97, but some internal control weaknesses still existed at activities
responsible for tracking and valuing these liabilities. These weaknesses
relate to the Army not having controls to ensure that all liabilities are
disclosed by Army organizations. Consequently, we couldn’t verify that
all reportable liabilities were identified and properly valued.

Total Expenses.    Prior audit results have shown that the accounting
systems don’t have subsidiary ledgers showing the detailed transactions
that make up the summary numbers reported for expenses in the Army’s
financial statements. As a result, there was a lack of audit trails, and we
didn’t attempt to audit the expenses (about $65.4 billion for FY 97 and
about $64.7 billion for FY 96) reported in the Army’s statements; The
Defense Accounting Service (the owner and operator of the Army’s
primary accounting systems) has acknowledged the deficiency and is
working on a new accounting system to replace those currently in use.
~rmy’r
   Principal   Financial   Sto~emen~s for Fiscal Yean   1997 ad   1996 (AA 98-104)   Auditor% Report/Page   9
This deficiency likely will continue as long as the existing systems are in
use.


                                             Other Reporting                               Problems

Our audit work identified other problems which don’t prevent us from
rendering an audit opinion, but which must be resolved to ensure that
the affected data is properly presented in the Army’s financial
statements.

Assets Under Capital Lease. The Army’s overseas real property
holdings (about $4.6 billion for FY 97) were still misclassified within the
notes as assets under capital lease instead of reported in the normal real
property accounts. Based on our audit report covering the Army’s
financial statements for fiscal years 1996 and 1995, the Office of the
Under Secretary of Defense (Comptroller) plans to modify applicable
guidance to require that agreements with foreign governments for the
occupancy of overseas real property be treated as capital leases only
when such agreements meet the standard criteria. In addition, real
property assets funded by host nations or international organizations
that were provided (donated) to the Army will be recorded at fair value at
the time of transfer and properly disclosed and explained in the notes to
the financial statements. However, the Office of the Under Secretary
didn’t modify the guidance in time for the current reporting period.

Operating Materials and Supplies. Based on guidance from the Under
Secretary of Defense (Comptroller), the Army expenses the inventories of
repair parts owned by its combat divisions and separate brigades. We
reported last year that we believe the inventories of these units
(authorized to stock parts inventories worth about $800 million) meet the
definition of operating materials and supplies, and that expensing them
understated the Army’s total assets. This is a DOD-wide issue currently
being addressed by the Inspector General, DOD.

Problem Disbursements. The reported totals for unmatched
disbursements and negative unliquidated obligations increased during
FY 97. These disbursements are a financial management concern
because they represent disbursements that have not been matched to
the original obligation or that do not agree with the amount of the
original obligation. As of 30 September 1997, the Army reported
unmatched disbursements of about $883 million and negative
unliquidated obligations of about $286 million. These totals may not be
directly comparable to the lower amounts reported for the prior year
because of changes in re.porting procedures. However, the balances have
continued to increase during the early part of IV 98. In response to this



~rmy’s   Principal   Financial   9a1emet-11~ for Fiscal Years 1997   and 19% (M   98104)              Auditoh   RepodPage   10
situation, the Army and the Defense Accounting Service plan to increase
their combined efforts to reduce problem disbursements.


                                                            Progress Areas

During our audit work we verified some positive conditions and
determined that the Army has made progress in resolving some
previously reported problems.

Mission Assets. During FY 97 we participated in a DOD-wide effort to
validate the onhand quantities of mission assets. This effort was
prompted by a new Federal financial accounting standard that requires
reporting of mission assets in a supplementary stewardship report
beginning in FY 98. Within the Army the review was designed to validate
accountability (existence) for the five largest categories of mission assets:
 aircraft, combat tracked vehicles, communications equipment, missiles,
and missile support equipment. We selected 786 items from a universe
valued at about $23.5 billion for validation. We also reverse (floor to
book) sampled 1,055 items. In total we validated 1,839 of the
1,84 1 items. The sample was designed on a “pass/fail” basis for each of
the five categories, and the Army successfully met this standard for each
category.

Equipment                           In July 1997 the Army chartered the
                            Reporting              Systems.
General and Mission Equipment Workgroup. Its overall objective is to
conduct a detailed review of the financial reporting process for Army
equipment and to assess the capabilities of current and future systems
to meet reporting requirements. The Workgroup has identified several
problem areas with current systems and has recommended changes to
systems that will improve the accuracy of equipment data. The
Workgroup is also working closely with the Global Combat Service
Support System-Army project management office to ensure that financial
reporting requirements for equipment are identified during system
development.

Unserviceable    Equipment.    In prior years we found that the Army
reported unserviceable equipment at full value and therefore overstated
the value of military equipment in the financial statements. For FY 97
U.S. Army Materiel Command reduced the reported value of
unserviceable equipment to more closely reflect its actual value. The
value of reparable equipment was reduced to 35 percent of its standard
unit price to allow for the potential repair cost. The value of non-
reparable equipment was reduced to its salvage value of 2.7 percent.

Equipment                            In prior years we found that
                            In Transit From Customers.
the Commodity Command Standard System classified equipment as in

Amy’s   Principal   Financial   51a1emen1s fw Fiscal Ycan   1997 and 19%   (AA 98104   Auditor3   RepoMage   11
 transit when a field return authorization was issued, but that the unit
 continued to report the equipment through the property book system.
 This double reporting caused an overstatement in the equipment
 balances. Data was not available for FY 96, but for FY 97 Materiel
 Command made an adjustment of about $550 million to correct the
 overstatement caused by duplicate reporting of equipment in transit from
field customers.

Equipment                                In prior years we found that the
                      Held by Project Managers.
application used by the Commodity Command Standard System
understated the reported balances for equipment because it omitted
Army-owned equipment held by project managers. For FY 97 Materiel
Command modified the system to include the value of this equipment.

Training    of Logistics Personnel. In prior years we found that the Army
had not provided its logisticians with financial training. Materiel
Command initiated action to improve the level of financial understanding
of its logistics personnel. As of FY 98, the Army incorporated financial
training into its revamped major item manager course.

Natural Resources.     The Army reduced the value of reported timber from
 $1.7 billion in FY 96 to $17 million in FY 97 so the balance would only
 reflect estimated timber sales for the next year. The FY 96 balance
 assigned a value to all timber, regardless of whether it would be
 harvested. The conservative approach adopted by the Army is
 reasonable until more specific guidance is issued by the Federal
:Accounting Standards Advisory Board.

Other Liabilities. The Army has continued to make progress in
reporting its liabilities not covered by budgetary resources (about
$27.7 billion for FY 97). This is the second year of significantly expanded
reporting in this area. For FY 96 the Army recognized about $15 billion
of these liabilities for the first time. For FY 97 additional liabilities
recognized for the first time included about $10.6 billion for chemical
demilitarization programs, about $972 million for environmental
restoration at closing installations, about $414 million for the Voluntary
Separation Incentive Program, and about $185 million for claims and
litigation. Although, as previously noted, some internal control
weaknesses still existed, the Army improved its controls for identifying
and reporting liabilities.

Military  Personnel and Payroll. The Army and the Defense Accounting
Service are continuing their efforts to integrate the personnel and pay
systems. Fielding of software upgrades, which will result in automated
interfaces between the personnel and pay systems, is scheduled to begin
during FY 98. This integration should increase data accuracy and
minimize improper payments.


&my’s Principal financial S~a~ementrfor Fiscal Years 1997md 1996WA 9ai OS)   AudiIds ReportPage 12
Travel Advances. The Army continued to emphasize the collection of
outstanding travel advances and the use of government travel cards to
reduce the need for advances. Reported travel advances as of
30 September 1997 totaled about $62 million. This represented a
decrease of about 15 percent compared with the total as of 30 September
1996. It was the third consecutive year with a reduction in the total.


                                                                      Outlook

Although fundamental problems continued to exist during FY 97, the
Army’s progress in correcting several problems within its power to resolve
indicates its commitment to implement the Chief Financial Officers Act
successfully. Solving all the major problems will likely take several more
years, but we continue to believe the outlook is positive.




                                                                      cgizk-L~-
                                                                         RANCIS E. REARDON, CPA
                                                                        The Auditor General

                                                                         13 February 1998




my’s   Principal   financial   Statements   br Fiscal Years 1997 ad   1996 MA 98-104         Audim’s   RepodPage   13
                                                         ANNEXES




Army’s Principal Financial S~a~ementrfor Fiscal Years 1997 and 19% (AA 98-1041   Annexes/Page 15
                                                                                  ANNEX A


                         AUDIT SCOPE AND METHODOLOGY


Army management, with support provided by the Defense Finance and
Accounting Service, is responsible for:

       0 Preparing the annual financial statements in conformity with
         applicable accounting principles.

       l    Establishing and maintaining internal controls and systems to
            provide reasonable assurance that the broad control objectives of
            the Federal Managers Financial Integrity Act are met.

       l    Complying with applicable laws and regulations.

We were responsible for auditing the financial statements and evaluating
related internal controls and compliance with laws and regulations. In
carrying out these responsibilities, we:

       l    Evaluated and, as necessary, tested relevant internal controls
            encompassing:

                   - Fund Balance With Treasury.

                   - Wholesale asset quantities.

                   - Wholesale asset values.

                   - Real property.

                   - Contingent and other liabilities.

                   - Financial statement preparation procedures.

       l    Conducted limited followup reviews on previously reported
            problems and recommendations related to:

                   - Accounting systems.

                   - Travel advances.

                   - Payroll.

                   - Retail equipment.


Army’s Principal Financial Statements for Fiscal Years 1997   and19% (AA 9a1043   Annex A/Page 17
ANNEX A


                     -    Government-furnished                           property.

                     - Accounts payable.

                     -    Progress payments.

                     -    National Guard reporting.

                     - Inventory,                net.

                     - Problem disbursements.

        l   Tested compliance                        with selected laws and regulations.

        l   Assessed data in the Overview section of the Annual Financial
            Report for consistency with data reported in the financial
            statements.

We didn’t conduct audit work on programs                                               that are classified for national
security.

To the extent possible, we performed our work in accordance                                               with
generally accepted government auditing standards and Office                                               of
Management and Budget Bulletin 93-06 (Audit Requirements                                                  for Federal
Financial Statements) as amended. However, as noted in the                                                body of our
report, the scope of our work had significant limitations.




&my’s   Principal Financial   Statements for Fiscal Yean   1997 and 1996 (M   981041                          Annex A/Page 1 g
                                                                                                 ANNEX       B

I                FINANCIAL              STATEMENTS                   AND NOTtiUNAUDITED                            1



    kpartment of the Army
    itatement of Financial Position
    Ls of Scptcmber 30,1997
    Thousands)

    LSSETS                                                                       m                1996

    . Entity kts:
      a Tnrnsactions with Fedeml (lnbagovemmental) Entities:
           (1) Fund Balance with Treasury (Note 2)                               S30,638,662      s31,343,151
           (2) Investments, Net (Note 4)                                               1,010            1,068
           (3) Accounts Receivable, Net (Note 5)                                   1.146,531          953,735
           (4) Interest Receivable                                                         0                0
           (5) Advances and Prepayments                                               19,990            4.304
           (6) Other Federal (Intragovernmental)                                           0                0
      b. Transactions with Non-Federal (Govcmmental) Entities:
           (1) Investments                                                                  0               a
           (2) Accounts Receivable, Net (Note 5)                                      129,059         260,244
           (3) Credit Program Reccivablcsl Related
                Foreclosed Propem, Net                                                       0               0
           (4) Interest Receivable, Net                                                      0             273
           (5) Advances and Prepayments                                              2,536,775         424,246
           (6) Other Non-Federal (Governmental)                                              0               0
      c. Cash and Other Monetary Assets (Note 3)                                        24,680          19,802
      d. Inventory, Net (Note 8)                                                     1.526,589      I ,899,92!
      e. WorkinRocess                                                                        0               0
      f. Operating Materials/Supplies, Net (Note 10)                                         0               a
      g. Stockpile Materials, Net (Note I I)                                                 0               a
      h. Seized Property (Note 12)                                                           0               a
        i. Forfeited Propc~, Net (Note 13)                                                   0               a
       j. Goods Held Under Price Support and
           Stabilization Programs, Net (Note 14)                                           0                0
        k. Property, Plant and Equipment, Net (Note 15)                          132,030,736      124,867,674
        I. War Reserves                                                           46,760,379       35,769,856
      m. Other Entity Assets                                                               0        5,476,723
      n. TohI Entity Assets                                                     $214,814,411     $20 1,020,999

    , Non-Entity Assets:
      a Tnmsactions with Federal (Inbagovemmental) Entities:
        (1) Fund Balance with Treasury (Note 2)                                      s213,364       (S134,337
        (2) Accounts Receivable, Net (Note 5)                                               0               0
        (3) Interest Receivable, Net                                                        0               0
        (4) Other (Note 6)                                                                  0               0




    hr srmmmnvino       nntcc          intsrral asrt of these stmtcmcnts.




Army’s Principal Financial Statementsfor Fiscal Years 1997 and 1996 MA 98104)                    Annex B/Page 19
ANNEX              B

1                      FINANCIAL              STATEMENTS              AND NOTES-UNAUDITED                           I




    Rpartment          of the Army
    Statement of Financial         Position
    4.9of September 30.1997
    Thousands)


    GSETS,       Continued                                                           E?2            19%
    !.   Non-Entity      Assets:
            Tmnsa&ons with Non-Federal (Governmental) Entities:
            (1) Accounts Receivable, Net (Note 5)                                       S62, I82         S6,478
            (2) Intemst Receivable, Net                                                   1,305           6,058
            (3) Other (Note 6)                                                                 0              0
            Cash and Other Monetary Assets (Note 3)                                     164,069         143,252
            Other Non-Entity Assets                                                            0              0
            Total Non-Entity Assets                                                    5X40,920         S21.451 1

    I. Total Assets                                                                 S215,255,331   S201,042,450
                                                                                -

    JABILITIES

    I.   Liabilities    Covered by Budgetary Resources:
         a Transactions with Federal (Intragovemmental) Entities:
            (I) Accounts Payable                                                      Sl,495,701     S2,069,074
            (2) Interest Payable                                                               0              0
            (3) Debt (Note 16)                                                                 0              0
            (4) Other Federal (Intragovernmental) Liabilities @Jote 17)                1,499,660        7253 I9
         b. Transactions with Non-Federal (Governmental) Entities:
            (I) Accounts Payable                                                        795,710        I ,789,207
            (2) Accmed Payroll and Benefits
                 (a) Salariesand Wages                                                 2,273,792       1,957,061
                 (b) Annual Accrued Leave                                                      0               0
                 (c) Severance Pay and Separation Allowance                              393,899         327,984
            (3) Interest Payable                                                               0               0
            (4) Liabilities for Loan Guamntees (Note 7)                                        0               0
            (5) Lease Liabilities (Note 18)                                                    0               0
            (6) Pensions and Other Actuarial Liabilities (Note 19)                             0               0
            (7) Other Non-Federal (Governmental)
                 Liabilities (Note 17)                                                  3 19,082        218,865
         c Total Liabilities Covered by Budgetary &sources:                          S6,777,844      S7.087,5 IO




    The accompanying         notes are an integral part of these statements.
                                                                                                                    1




my’s      Principal Finandal Sram-nem for Fircal Yei   19% and 19% MA 97-133)                      Annex B/Page20
                                                                                                 ANNEX        B

I                 FINANCIAL             STATEMENTS                   AND NOTES-UNAUDITED                            I



    kpartment of the Army
    itatcmcnt of Financial Position
    Ir of September 30,1997
    Thousands)

    AABILITIES, Continued

    i. Liabilities Not Covered by Budgetary Resources:
       a Transactions with Federal (Intra8ovemmental) Entities:
           (I) Accounts Payable                                                            so                so
           (2) Debt (Note 16)                                                              0                 0
           (3) Other Federal (Intragovernmental) Liabilities (Note 17)               337,434           769,119
       b. Transactions with Non-Federal (Govcmmcntal) Entities:
           (I) Accounts Payable                                                             0                  0
           (2) Debt (Note 16)                                                               0                  0
           (3) Lease Liabilities (Note IS)                                            124,273                  0
           (4) Pensions and Other Actuarial Liabilities (Note 19)                  I ,482,069        1,313,935
           (5) Other Non-Federal (Governmental) Liabilities (Note 17)             27,712,155        16,128,481
       c. Total Liabilities Not Covered by Budgetary Resources                   S29,655,93 1      S18,211,535

    i. Total Liabilities                                                         S36,433,775       S25.299.045

    ET POSITION (Note 20)

    I. Balances:
       a. Unexpended Appropriations                                              S27,286,28 I      S27.46 I.855
       b. Invested Capital                                                       181,592,741        168,160,756
       c. Cumulative Results of Operations                                          (401,535)        (1,667,671;
       d. Other                                                                             0                  0
       e. Future Funding Requirements                                            (29,655,93 I)      (18,211,535:
       f. Total Net Position                                                    S178.821.556      s175.743.405

    I. Total Liabilities and Net Position                                       S2 15,255,33 1    S201,042,450




    The rccomuanving notes are an integral part of these statements.




&my’s Principal Financial Statements for Fiscal Years 1997 and 1996 IM 98-104                    Annex E/Page 2 1
ANNEX             B

I                 FINANCIAL          STATEMENTS              AND NOTES-UNAUDITED                         I



    kpartmcnt     of the Army
    statement of Operations and Changes in Net Position
    For the Period Ended September 30.1997
    IThousands)


    REVENUES      AND FINANCING SOURCES

    1. Appropriated Capital Used                                       557,008,818       f55,643,7 17
    2. Revenues from Sales of Goods and Services
       a. To the Public                                                    497,750           627,185
       b. Intragovernmental                                              5.384,OlO         5.552.692
    3. Interest and Penalties. Non-Federal                                       0                 0
    4. Interest, Federal                                                       356                 0
    5. Tties (Note 2 I)                                                          0                 0
    6. Other Revenues and Financing Sources (Note 22)                    2.333.553           929,604
    7. Less: Taxes and Receipts Transferred to
       the Treasury or Other Agencies                                     (548,897)         (432,977:
    8. Total F&venues and Financing Sources                            R-4,675,590       %2.320,22 I


    EXPENSES

     9. Program or Operating Expenses (Note 23)                        S57,616,%1        S57,789,003
    IO. Cost of Goods Sold (Note 24)                                                          L
         a. To the Public                                                  497,750           627,185
         b. Intragovernmental                                            5,384,OlO         5,552,692
    I I. Depreciation and Amortization                                           0                 0
    12. Bad Debts and Writeoffs                                             14,544            23,252
    13. Interest
         a. Federal Financing BankYfreasury Borrowing                            0                 0
         b. Federal Securities                                                   0                 0
         c. Other                                                           20.711             1,576
    14. Other Expenses (Note 25)                                         1,885,089           735,136
    15. Total Expenses                                                 S65,4 19,065      &X728,844


    16. Excess (Shortage) of Revenues and
        Financing Sowes Over Total Expenses
        Before Extraordinary Items                                       (S743,475)      (S2,408,623:
    17. Plus (Minus) Extraordinary Items (Note 26)                                   0               0
    18. Excess (Shortage) of Revenues and
        Financing Sources Over Total Expenses   ’                        (S743,475)      (52,408,623:




    fhc accompanying notes are an integral part of these statements.
                                                                                                          ANNEX B

I                   FINANCIAL                  STATEMENTS                  iND      NOTES--UNAUDITED                        1




    Department of the Army
    statement of Operations and Changes in Net Position
    For the Period Ended !kptcmbcr             30,1997
    Tbusands)


    EXPENSES,        Continued


    19. Net Position, Beginning Balance, as Previously Stated                             $175.743.405     WI 1531,585
    !O. Adjustments (Note 27)                                                              (15.069.514)     (13,685,466:
    ! I _ Net Position, Beginning Balance, as Restated                                    Sl60.673.891     Sl97,546,119
    !2   Excess (Shottage) of Revenues and
         Financing Sources Over Total Expenses                                                (743,475)       (2,408,623)
    !3. Plus (Minus) Non Operating Changes (Note 28)                                        18,891,140      (19,394,091)
    !4. tit   Position, Ending Balance                                                    Sl78.821,556     s175,743,405
                                                                                      -          s-




    The accompanying           notes arc an integral part of these statements.




~rmy’s   Principal Financial   sutements   forFiscalYears1997 and 19% (M   98104)                         Annex B/Page 23
ANNEX            B

1                FINANCIAL              STATEMENTS                  AND NOTES-UNAUDITED                          1




    kpartment of the Army
    itatement of Cash Flows
    ior the Period Ended September 30,1997
    Thousands)

    :ASH FLOWS FROM OPERATING ACTIVITIES                                       1997
    1. Excess (Shortage) of Revenues and Financing
       Sources Over Total Expenses                                              (S67.903)        (S421.32f


    rdjustments Affecting Cash Flow:
    2. Appropriated Capital Used                                                                         C
    3. &crease (Increase) in Account       Receivable                             (289:)           111,105
    4. Dccmasc (Increase) in Other Assets                                        405,259           55 I.085
    5. Increase (Decrease) in Accounts Payable                                  (108,254)          (49,975
    6. Increase (Decreaw) in Other Liabilities                                  (XwO9)            (306,98!
    7. Depreciation and Amortization                                                     0                   a
    8. Other Unfunded Expenses                                                           0                   C
    9. Other Adjustments                                                          36,885            20,025
    0. Total Adjustments                                                        S129,586         S325,255


    I. Net Cash Provided (Used) by Operating Activities                          S61,683          (S%,o65

    :ASH FLOWS FROM           INVESTING      AtXlVITlES

    2. Sale of Property, Plant and Equipment                                          SO                sa
    3. Purchase of Property, Plant and Equipment                                         0                   a
    4. Sale of Securities                                                                0                   a
    5. Purchase of Securities                                                            0                   a
    6. Collection of Loans Receivable                                                    0                   a
    7. Creation of Loans Receivable                                                      0                   0
    8. Other Investing Cash Provided (Used)                                              0                   0


    9. Net Cash Provided (Used) by Investing Activities                               SO                SO


    :ASH FLOWS FROM FINANCING ACIIVITIES

    0. Appropriations (Current Warrants)                                              SO                SO
    1. Add:
       a Restorations                                                                    0               0
       b. Transfers of Cash from Others                                                  0               0
    2. Deduct:
       a   Withdrawals                                                                   0               0
       b. Transfers of Cash to Othm                                                      0               0


    3. Net Appropriations                                                             so                so


    ‘he accompanying notes are an integrnl part of these statements




Army’s Principal Financial Snkments for Fiscal Years 19% and I995 (M 97-133)                 Annex B/Page24
                                                                                                              ANNEX        B

1                     FINANCIAL                 STATEMENTS                     AND NOTES-UNAUDITED                              I




    IkpartInent       of the Amy
    !Statementof Cash Rows
    For the Period Ended September 30.1997
    W--W
                                                                                              1997              1996
    CASH FJBWS FROM FINANCING ACI-MTIES, Coathued

    24. Bmowing fium the Public                                                                         so                so
    25. RepymentsonLmnstothePublic                                                                       0                 0
    26. Borrowing !knn the T~asuy and the Federal Fimncing Bank                                          0                 0
    27. RepaymentsonLoansfiwntheTremryandtheFedeml
        Financing E3ank                                                                                  0                 0
    28.OtherE3orrohgs    and Repayments                                                                  0                 0

    29. Net Cash Provided (Used) by Financing Activities                                                so                so
    30. Net Cash Provided (Used) by operating,
        Investing and Financing Activities                                                       S61,683           (SW,065

    3 1. Fmd Balance with Treasury, Cash, and
         Foreign Currency, Beginning                                                                 63,613         159,678

    32. Fund Balance with Treasury, Cash, and
        Foreign Cmency, Ending                                                                  Sl25,2%             S63,613
                                                                                          s


    St~yJcmentaJ JXscJasure of Cash Row Information:                                          1997             1996

    33. Total Interest Paid                                                                             so               SO


    supplemental Schedule of Fmnncing and Imating                     Activity:               1997             19%

    34. Prom     and Equipment Acquired Under
        Capital Lease obligations                                                                       so               so
    35. m             Acquired Under Long-Term Financing
            Arranganenu                                                                                 so               so
    36. Other Exchanges of Nomash Assets w Liabilities                                                  so               so




    --r_---...*            ---...   -         L-.-l     Ud




~rmy’5      Principal Financial Sn~ementr for Fiscal Years 1997   and 19%   WA 98-l 04)                       Annex B/Page 25
ANNEX              B

I                              FINANCIAL             STATEMENTS                      AND NOTES-UNAUDITED
                                                                                                                              I




                       DEPARTMENT OF THE ARMY




                                                    NOTES TO THE

                                                           PRINCIPAL
                                FINANCIAL STATEMENTS




by’s   Principal   Financial   Statements for Fiscal Years 1997 and 19%   (M   98-104)   .                 Annex B/Pap   26
                                                                                                 ANNEX      B


1                     FINANCIAL               STATEMENTS                  AND NOTES--UNAUDITED



    NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS

 Note 1. Sienificant             Accountiw           Policies:

 A. Basis of Presentation:

       These financial statements have been prepared to report the financial position and results
 of operations of the Department of the Army, as required by the Chief Financial Officers
 (CFO) Act, and other appropriate legislation. They have been prepared from the books and
 records of the Army in accordance with Department of Defense (DOD) guidance on the form
 and content of financial statements as adopted from Office of Management and Budget
 (OMB) Bulletin No. 94-01, “Form and Content of Agency Financial Statements,” and
 subsequent issues. Consequently, these statements are different from the periodic accounting
 reports, also prepared by the Army pursuant to OMB directives, that are used to monitor and
 control DOD’Suse of budgetary resources.

     The Army’s financial statements are prepared from a consolidation of accounting
 information reported from multiple field level accounting systems as well as departmental
 level data input by the Defense Finance and Accounting Service (DFAS) - Indianapolis
 Center. This consolidated accounting data is maintained in the Headquarters Accounting and
 Reporting System (HQARS) departmental general ledger located at DFAS-IN.

     General ledger account balances have been verified to the year-end departmental budget
 execution and expenditure reports. Department level budget execution reports are prepared
 from installation budget execution reports that are certified for accuracy and completeness by
 installation commanders. Other methods, to include feeder reports, must be used to verify the
 accuracy of general ledger balances in those instances where budget execution and
 expenditure reports don’t contain the required information - for example, “Government
 Furnished Property”.

 B. Reporting Entity:

     The Army’s primary mission is to train and equip forces for the conduct of prompt and
 sustained combat operations on land. The accompanying audited financial statements account
 for all funds for which the Army is responsible except that information relative to classified
 assets, programs, and operations has been excluded from the statements or otherwise
 aggregated and reported in such a manner that it is no longer classified.

    The accounts used to prepare the principal statements are classified as entity/non-entity and
by type of fund. Entity accounts consist of resources that the agency has the authority to
decide how to use, or where management is legally obligated to use funds to meet entity



~rmy’s Principal Financial SlaIemena for Fiscal Years 1997 and 1996 (AA 9&1CW                    Annex Wage 27
    ANNEX          B

I
                           FINANCIAL              STATEMENTS                   AND NOTES--UNAUDITED                     1

obligations. Non-entity accounts are assets that are held by an entity but are not available for use
in operations.

     Designators with X, F, and R indicate availability for an indefinite period of time.
Appropriations with a designator “*” are for a specific period of time.

Entitv Accounts:

Revoking Funds
21X4528 - Working Capital Fund, Army Conventional Ammunition

Trust Funds
21X8063 - Bequest of MG Fred C. Ainsworth, Library, Walter Reed Army Medical Center
21X8927 - General Gift Fund

Gieneral Funds
21,*7020 - Military Construction, Family Housing
21.*7025 - Operation & Maintenance, Family Housing
21.*1705 - National Board for the Promotion of Rifle Practice, Army
21.X1805 - Cemeterial Expenses, Amy
21.*2010 - Military Personnel, Army
21.*2020 - Operations & Maintenance, Army
21 *2031 - Aircraft Procurement, Army
21.*2032 - Missile Procurement, Army
21.*2033 - Procurement of Weapons and Tracked Combat Vehicles, Army
21. *2034 - Procurement of Ammunition, Army
21;*2035 - Other Procurement, Army
21I*2040 - Research, Development, Test & Evaluation, Army
21I*2050 - Military Construction, Army
21\*2060 - National Guard Personnel, Army
21I*2065 - Operations & Maintenance, Army National Guard
21I*2070 - Reserve Personnel, Army
21I*2080 - Operation & Maintenance, Army Reserve
21I*2085 - Military Construction, Army National Guard
21I *2086 - Military Construction, Army Reserve

Special Funds
21X5095 - Wildlife Conservation, etc., Military Reservations, Army
21X5098 - Restoration, Rocky Mountain Arsenal
21X5194 - DOD 50th Anniversary of World War II Commemoration Account
21X5285 - Forest and Wildlife Conservation, Military Reservations
21X5286 - National Science Center, Army




    Army’s F’rincipal Financial St~emen~r for Fiscal Years 1997 and 19% (AA V&104                     Annex B/page 28
                                                                                                         ANNEX        B


     I
                               FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED

           Note 1B Continued

              Non-Entitv         Accounts:

              Deposit Funds
              21X6001 - Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property-Army
              21X6082 - Personal Funds of Deceased, Mentally Incompetent or Missing Personnel,

              21X6010 - Army Member Savings Deposit-Desert Shield/Desert Storm Savings Program
              21X6031 - Effects of Mentally Incompetent Soldiers - United States Army
              21X6050 - Employees’ Payroll Allotment Account, United States Savings Bonds
              21*6060 - Estates of Deceased Soldiers, Regular Army
              21X6075 - Withheld Allotment of Compensation for Payment of Employees
                 Organization Dues
              21X6083 - Withheld Allotment of Compensation for Charitable Contributions
              21X6105 - Withheld Employee Contributions, State or Territorial Retirement
              21X6108 - Employer Contributions, State or Territorial Retirement
              21X6112 - Withheld Employee Contributions, State or Territorial Disability Benefits
              21X6113 - Withheld Employee Contributions, State or Territorial Death Benefits
              21X6129 - Foreign Taxes Withheld
_-            21X6131 - Employee and Employer Contributions, Private Insurance Plans, Dept of the
                 AmiY
              21X6134 - Amounts Withheld for Civilian Pay Allotments
              21X6208 - Amounts Withheld for Group Life Insurance, National Guard Members
              21X6275 - Withheld Income Taxes (State, County, City)
              21X6434 - Servicemen’s Group Life Insurance Funds, Suspense, Dept of the Army
              21*6763 - Gains and Deficiencies on Exchange Transactions-Army
              21X6875 - Budget Clearing Account (Misc.)
              21X6999 - Accounts Payable, Check Issue Underdrafts

              Special Funds (Receipt Accounts)
              21RO891- Miscellaneous Fees for Regulatory and Judicial Services not Otherwise
                 Classified
              21R1020 - Fines, Penalties, and Forfeitures, Economic Stabilization Laws
              21R1030 - Fines, Penalties, and Forfeitures, Immigration and Labor Laws
              21R1060 - Forfeitures of Unclaimed Money and Property
              21R1099 - Miscellaneous Fines, Penalties and Forfeitures
              21R1125 - Recoveries Under Military Occupation
              21R1210 - Contributions to Conscience Fund
              21R1292 - Residue of Funds of Quasi-Governmental Organizations
              21R1299 - Gifts--To the United States not otherwise classified




         Army’s Principal Financial Statementsfor Fiscal Years 1997 and 19% IM 98-104)                    Annex B/Page 29
 ANNEX             B

I                              FINANCIAL           STATEMENTS                     AND NOTES-UNAUDITED                     I

Note 1B Continued
21R2462 - Deposits for Survivor Annuity Benefits
21R3019 - Recoveries for Government Property Lost or Damaged, Not Otherwise Classified
21R3041 - Recoveries Under Foreign Aid Programs -- Foreign Military Sales
21R3102 - Recoveries From Federal Agencies Resulting for Reductions in Civilian Salaries of
     Military Retirees -
2lR3200 - Collections of Receivables from Canceled Accounts
21R3210 - General Fund Miscellaneous Income and Recoveries not Otherwise Classified
21R3220 - General Fund Proprietorship Receipts
21R5095 - Sale of Hunting and Fishing Permits, Military Reservations
21R5098 - Restoration, Rocky Mountain Arsenal, Army-Reimbursements from Private
     Industry
21R5194 - Royalties for Use of DOD-Military Insignia and Trademarks
21R5285 - Forest and Wildlife Conservation, Military Reservations
21R5286 - National Science Center - Facilities
21R8063 - Bequest of MG Fred Ainsworth to Walter Reed Army Medical Center
21R8927 - Trust Fund Receipt Accounts for Department of the Army General Gift Fund

Special Funds
21F0109 - Federal Tax withheld from payments to nonresident aliens
21F3845 - Proceeds of Sales, Personal Property
21F3875 - Budget Clearing Account (Misc.)
21F3878 - Budget Clearing Account (Chargebacks)
21F3879- Undistributed & Letter of Credit Differences (Suspense)
2133880 - Unavailable Check Cancellations
21F3885 - Undistributed Intra-government Payments
ZlF3886 - Federal Employee Retirement System,(FERS) - Thrift Savings Plan Account

C. Budgets and Budgetary Accounting:

       The Assistant Secretary of the Army (Financial Management and Comptroller) is responsible
for directing the Army’s budget and monitoring its execution against funds appropriated by
Congress. Funds are distributed by appropriation directors through major commands to
installations responsible for accomplishing the diverse missions for which the Army is
responsible. As missions are performed, installations report obligations and disbursements against
the applicable appropriations.

      The Army’s appropriations are divided into the general, revolving, trust, special and deposit
funds. These accounts are used to fund and report how the resources have been used in the course
of executing the Army’s missions.

        General funds contain the bulk of Congressional appropriations, including personnel,
operations, research and development, investment, and construction accounts.



Army’s Principal   financial   Sutemem   for Fiscal Years 1997 and 19%   CM 96-l 04)                    Annex Wage   30
                                                                                                    ANNEX        B


1                         FINANCIAL               STATEMENTS                  AND NOTES-UNAUDITED                    I

               The Conventional Ammunition Working Capital Fund, a revolving fund, accounts
         for the procurement, production, storage, distribution, maintenance, and demilitarization of
         conventional ammunition for all services.

              Trust funds are used to record the receipt of funds held in trust for the government.
         Special funds are comprised of receipt and expenditure accounts that can only be used in
         accordance with specific provisions of law. Deposit funds generally are used to hold
         assets that are awaiting legal determination or for which the Army acts as agent or
         custodian. These accounts may also be used for unidentified remittances.

         D. Basis of Accounting:

                 Transactions are generally recorded on an accrual basis and a budgetary basis. Under
         the accrual method, revenues are recognized when earned and expenses are recognized
         when a liability has been incurred, without regard to the actual receipt or payment of cash.
         Budgetary accounting is accomplished through unique general ledger accounts which
         facilitate Army’s compliance in meeting both legal and internal control requirements
         associated with the use of federal funds. All known intrafund balances have been
         eliminated.

         E. Revenues and Other Financing Sources:

               The Army receives the majority of funding required to support its programs and
         missions through Congressional appropriations. A financing source, “Appropriated
         Capital Used”, is recognized each fiscal year to the extent that appropriated funds have
         been consumed. Purchases of capital items and accruals of unfunded liabilities are
         excluded from the ‘*Appropriated Capital Used” account.

                Appropriations are, when authorized, supplemented by revenues generated by sales
         of goods or services through a reimbursable order process. Revenue is recognized to the
         extent the revenue is payable to the Army from other federal agencies and the public as a
         result of costs incurred or services performed on their behalf. Revenue is recognized when
         earned under the reimbursable process. The Conventional Ammunition Working Capital
         Fund recognizes revenues at the point of delivery.

                  Other revenues and financing sources include donated revenue and inventory and
         other gains. Donations to the Army are recognized as a financial source upon acceptance
         of the donated asset. Revenue is recorded for the value of the increase to the asset account.
         Certain expenses, such as anrmal and military leave earned but not taken, are not funded
         when accrued. Such expenses are financed in the period in which payment is required.
         Therefore, for the Army’s general funds, an amount due from future financing sources
         (appropriations to be provided) is recognized as an offset to equity in the Statement of
         Operations and Changes in Net Position.


    Army’s Principal Financial 50tcmenN for Fiscal Years 1997 and 1996 (A.4 9&104)                   Annex B/Page 3 1
ANNEX                B

1                           FINANCIAL                   STATEMENTS                   AND NOTES-UNAUDITED


F. Accounting                for Intra-governmental                     Activities:

       The Army, as an agency of the Federal Government, interacts with and is dependent upon the
financial activities of the Federal Government as a whole. However, it should be noted that these
financial statements do not reflect the results of all financial decisions applicable to the
Department as though the agency were a stand alone entity.

      The Army’s proportionate share of public debt and related expenses of the federal
government are not included in the financial statements. Debt incurred by the’ federal govemment
and the related interest are not apportioned to federal agencies. The Army’s financial statements
do not reflect any portion of the public debt or interest thereoni nor do the statements reflect the
source of public financing (e.g. debt issuance, tax revenues). The related interest costs incurred in
the construction of Army facilities are also not capitalized since Treasury does not allocate interest
costs to the benefiting agencies.

       The Army’s permanent civilian employees and military personnel are covered under the Civil
Service Retirement System (CSRS), Federal Employees Retirement System (FERS) and the
Military Pay Retirement System (MRS) plans.

         CSRS - Army makes matching contributions                                        equal to 7 percent of civilian pay.

     FERS - Army contributes to FERS, Social Security (SS) and Thrift Savings Plan for civilian
employees hired after December 3 1, 1983, or CSRS employees that elected to be covered under
FERS.

      M.    - Army contributes to the Military Pay Retirement                                        Fund for Active Component      and
Reserve/National Guard members.

      The Army also contributes to the FERS Thrift Savings Plan on behalf of its participating
employees. The following page shows Army’s contributions to the retirement plans and FERS
Thrift Savings Plan (TSP).




 Amy’s   Principal   Financial   Statement5   for Fiscal Years 1997 and 19% (AA 98-104                                         Annex B/Page 32
                                                                                                  ANNEX        B

I                      FINANCIAL               STATEMENTS                   AND NOTES-UNAUDITED                     I


                                                  Retirement Contributions
                                                       (Thousands)

                                                                                     FY 97
                             CSRS                                                 $263,774
                             FERS                                                  385,635
                             MRS                                                 3,985,444
                             Social Security                                       344,3 14
                                                                                $4,979,167



                              TSP                                               % 132,282

            The Army funds a portion of the pension benefits under these retirement plans. No
       amounts are reported as assets or liabilities in the Statement of Financial Position because
       the fiurds are maintained and reported by the Office of Personnel Management for CSRS
       and FERS; and DOD for MRS. Overseas commands obligate mission finds to pay
       separation and severance pay for Foreign Nationals in accordance with the Status of
       Forces Agreements.

       G. Funds with the U.S. Treasury and Cash:

             The Army’s funding resources are maintained in Treasury receipt and expenditure
       accounts. The account balance with Treasury represents the aggregate ofall Army
       appropriations. The Army is an agent for the Department of the Treasury for cash on
       hand.

              Fund Balance With Treasury is adjusted for the amount of undistributed
       disbursements and collections reported in the departmental expenditure system. A
       corresponding adjustment is also processed to both accounts payable and accounts
       receivable respectively. These adjustments represent Army’s in-float (undistributed)
       disbursements/collections for transactions that have been reported by a disbursing station
       but not recorded by the appropriate accountable station. See Note 2, “Fund Balance with
       Treasury”.

             Cash in the accounts of Army officials was reported in the financial statements as
       “Cash and Other Monetary Assets”. Other cash reported included imprest funds and
       undeposited collections. Army disbursing officers also maintain small on hand balances
       of foreign currencies when acting as an agent for the Treasury Department in overseas
       locations. These foreign currency balances are reported at the U.S. Dollar equivalent
       using the exchange rate in effect on the last day of the reporting period. See Note 3,
       “Cash, Foreign Currency, and Other Monetary Assets”.



~rmy’s Principal Financial Statementsfor Fiscal Years 1997 and 1996 (AA 98104                     Annex B/Page 33
ANNEX          B

I                      FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED                     I

H. Foreign Currency:

      The Department conducts a significant portion of its operations overseas. Gains and losses
from foreign currency fluctuations are computed as the variance between the current exchange rate
at the date of payment and a budget rate established at the beginning of the fiscal year.
         -
I. Accounts Receivable:

      As presented in the Statement of Financial Position, accounts receivable includes accounts,
claims, and refunds receivable from other entities. Allowances for uncollectible accounts are
based on an analysis of collection experience by fund type. Accounts receivable are adjusted for
the amount of undistributed collections reported in the departmental expenditure system. A
corresponding adjustment is also processed to Fund Balance With Treasury. These transactions
represent the Army’s in-float (undistributed) collections for transactions that were reported by a
disbursing station but not recorded by the appropriate accountable station. Accounts Receivable
that were established under accounts that have been canceled are immaterial in amount and are
therefore excluded from these financial statements. See Note 5, “Accounts Receivable, Net”.

J. Loans Receivable:              Not applicable

K. Inventory:

      Currently, inventory is not recorded in the financial statements at the approximate historical
cost in accordance with Statement of Federal Financial Accounting Standards Number 3,
“Accounting for Inventory and Related Property”. Instead, inventory is valued at a standard price
(sale price) which includes the purchase price plus cost recovery factors (commonly called
surcharges) necessary to recover operating costs and anticipated inflation rate changes. Gains or
losses that result from valuation changes for inventory are not recognized and reported in the
Statement of Operations. Such gains or losses are, however, reflected in the inventory asset
valuation and related invested capital account in the Statement of Financial Position. See Note 8,
“Inventory, Net”.

L. Investments           in U.S. Government Securities:

      Investments in U.S. Government securities are reported at cost, net of unamortized premiums
or discounts. Premiums or discounts are amortized into interest income over the term of the
investment. The reporting entity’s intent is to hold investments to maturity. Consequently, no
provision is made for unrealized gains or losses on these securities because, in the majority of
cases, they are held to maturity. See Note 4, “Investments, Net”.




~rmy’s Principal Financial S~atemen~rfor Fiscal Years 1997 and 1996 MA 9&104)                    Annex B/page 34
                                                                                                ANNEX B

I                     FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED

      M. Property, Plant and Equipment:

        Property, Plant and Equipment (PP&E) represents the majority of total assets recorded on
    the Statement of Financial Position. Property accountability systems maintain the subsidiary
    records that support the general ledger balances as recorded in the financial accounting
    systems. Property book officers generally report PP&E end of period balances to the
    supporting accounting offices on a quarterly basis.

         Current DOD financial capitalization policy requires that assets previously capitalized at
    lower thresholds - $5,000 prior to FY 91; $15,000 from FY 91 - FY 93; $25,000 in 1994;
    $50,000 in 1995; and %100,000 in 1996 - remain in the PP&E accounts subsequent to the
    raising of capitalization thresholds. Most of the Army’s property accountability systems
    can’t comply with financial capitalization reporting requirements. Consequently, these
    systems are generally using the current $100,000 capitalization threshold criteria for items
    having an estimated useful life of two or more years, regardless of when acquired.

         Real property comprising land, buildings, and other facilities is valued using historical
    costs. The asset capitalization threshold was generally applied to the total costs (acquisition
    and capital improvements) of each facility supported by the Army’s primary real property
    accountability system, the Integrated Facilities System. The other real property system
    generally reported asset costs in excess of $25,000. Personal property (military equipment)
    is generally valued using latest acquisition costs or standard prices. During FY 97, Office of
    Under Secretary of Defense (Comptroller) and DOD Agencies, with the help of the Army
    Audit Agency, developed an interim approach to the valuation of natural resources. An
    interim solution is required until further guidance is promulgated by the FASAB. In past
    years, Army recorded the value of standing timber without regard to whether the timber
    would ever be harvested. Army recorded $1.7 Billion in the Natural Resources Account for
    FY 96. However, in FY 97, only installations with commercial timber programs were
    instructed to submit the estimated value of FY 98 timber sales. The change in the method of
    estimating timber values resulted from an agreement reached between auditors and
    management and satisfied a prior year audit recommendation. Consequently, the value of
    Natural Resources reported for FY 97 is significantly smaller than reflected in previous CFO
    Reports. The FY 97 value was determined by multiplying planned volumes of forest
    products to be sold in FY 98 by the estimated market value of the forest products. Planned
    volumes are developed from adjusted Integrated Natural Resources Management Plans.
    Market values are estimated regionally using trade journals, market research, and projected
    business cycles.




~rmy’s Principal Financial Sotememr for Fiscal Years 1997 and 19% (M 96-104)                    Annex Wage 35
    ANNEXB

I
                          FINANCIAL              STATEMENTS                  AND NOTE%UNAUDITED

     New buildings are capitalized upon acceptance by the installation. Gains or losses from
transfer of assets or liabilities between agencies are not recognized, except when assets are
transferred to the Base Realignment and Closure Account. This account is not allowed to
accumulate gains or losses on disposal. Any gain or loss must be transferred back to the
original/losing command.

     Government furnished material and property (GFlWGFP) are reported quarterly in the
departmental general ledger. Contractors are required to maintain accountable records for
GFM/GFP. The contractor data is used to supplement the general ledger balances. Land and
buildings also include amounts for real property in the hands of contractors.

        No gains or losses were recognized in the Statement of Operations for revaluation changes
    and/or the loss of equipment. However, the assets and related investment accounts do reflect both
    pricing and value changes based on a periodic update to the general ledger. Depreciation is not
    currently recorded for assets financed by general fund appropriations because the property
    systems were not originally developed to provide this data. DOD is in the process of addressing
    this reporting deficiency. Routine maintenance and repair costs are expensed when incurred. See
    Note 15, “Property, Plant and Equipment”.


N. Prepaid and Deferred Charges:

      Payments in advance of the receipt of goods and services are recorded as prepaid charges at
the time of prepayment and reported as an asset on the Statement of Financial Position. Prepaid
charges are recognized as expenditures and expenses when the related goods and services are
received.

0.      Leases:

      As of September 30,1997, the Army was committed to numerous operating leases and rental
agreements. Generally, these leases and agreements were for the rental of equipment, space, rights
of way, and operating facilities. The Army owns substantially all of the facilities and real property
used in its domestic operations. Capital assets overseas are purchased with appropriated funds;
however, title is retained by the host country.

      Real property assets at overseas locations are classified as Capital Leases in accordance with
DOD accounting policy. The policy requires that real property assets recorded under foreign
government agreements per&ting DOD occupancy of facilities - which require maintenance to be
provided by DOD - be recorded as a capital lease. These “capital leases” do not fit the criteria of a
typical capital lease due to the nature of the agreements with foreign governments and the fact that
the assets have already been funded and disbursements have already been made out of
appropriated funds. Consequently, no capital lease liability related to overseas real property assets
is required for financial statement recognition. See also Note 18.



    &my’s Prin@al Financial S~rtementr for Fiscal Years 1997 and ‘19% (M 96104                    Annex B/Page 36
                                                                                                ANNEX B


I                      FINANCIAL              STATEMENTS                  AND NOTES-UNAUDITED



    P. Contingencies:

           Most legal actions, other than contract claims, to which the Department may be a
      named party are covered by the provisions of the federal tort claims act and the provisions
      of Title 10, United States Code, Chapter 163, governing military claims. Because
      payments under these statutes are limited to amounts well below the threshold of
      materiality for claims payable from the Department’s appropriations or because payments
      will be from the permanent, indefinite appropriation “Claims, Judgments, and Relief Acts”
      (the Judgment Fund), these legal actions should not materially affect the Army’s operations
      or financial position.

    Q. Accrued Leave:

          Civilian annual leave and military leave are accrued as earned and the accrued amounts
      are reduced as leave is taken. The balances for annual and military accrued leave at the end
      of the fiscal year reflect current pay rates for the leave that is earned but not taken. Sick
      and other types of nonvested leave are expensed as taken. To the extent appropriations are
      not available to fund annual leave earned but not taken, funding will be obtained from
      future financing sources.

    R. Equity:

          Equity consists of invested capital, cumulative results of operation, and unexpended
     appropriations less unfunded liabilities. Invested capital, as presented in the Statement of
     Financial Position, represents the value of the Army’s capital assets reported at average or
     actual cost. The portion of invested capital attributable to land and buildings represents
     their undepreciated cost. Increases to invested capital are recorded when capital assets are
     acquired or constructed or when asset valuations increase as a result of increases in average
     costs. Decreases occur as capital assets are consumed in operations, or when average costs
     are decreased.

         Cumulative results of operation represents the excess of revenues over expenses since
     fund inception, less refunds and returns to the U.S. Treasury for all funds other than the
     General Fund. The excess of revenues over expenses for the General Fund is reported in
     “Invested Capital”. Unexpended appropriations represent amounts of authority which are
     unobligated and have not been rescinded or withdrawn, and,amounts obligated but for
     which neither legal liabilities for payments have been incurred nor actual payments made.

    S. Aircraft/Ship            Crashes: Not applicable to Army




&my’s Principal Financial Statemmtr for Fiscal Years 1997 and 19% (AA 96104)                    Annex B/Page37
 ANNEX             B

I                         FINANCIAL, STATEMENTS                               AND NOTES-UNAUDITED


 T. Treaties for Use of Foreign Bases:

      The Army has the use of land, buildings, and other facilities which are located overseas and
have been obtained through various international treaties and agreements negotiated by the
Department of State. Generally, treaty terms allow the Army continued use of these properties
until the treaties expire. These assets are subject to loss in the event treaties are not renewed or
other agreements are not reached which allow for the continued use by the Army. In the event
treaties or other agreements are terminated and use of foreign bases is no longer allowed, losses
will be recorded for the value of any non-retrievable capital assets after negotiations between the
United States and the host country have been concluded, to determine the amount due the United
States for such capital investments. Operating expenses for overseas bases are included in the
Statement of Operations.

U. Comparative                Data:

      Comparative data from FY 96 has been included in the Army’s FY 97 Principal Statements.
Army’s financial statements will continue to reflect restatements and reclassifications due to the
evolving nature of federal accounting standards and the development of new reporting financial
systems. Restatement of lines 1.d. and 1.l. resulted from new DOD guidance relating to
reclassification of War Reserve Materials from the “Inventory, Net” line to a new line entitled
“War Reserves.”

Statement of Financial Position:

(Thousands)
FY 96 Line                                  FY 96 Balance                           Chance         FY 96 Restated

1.d.                                           $37,669,779                        (!§35,769,856)    f 1,899,923
1.1                                                $0                              %35,769,856      $35,769,856

V. Undelivered              Orders:

      The Army was obligated to pay for undelivered orders (goods and services that have been
ordered but not yet received) amounting to $28.1 Billion at fiscal year-end. No liability for
payment has been established in the financial statements because goods/services have yet to be
delivered.

    Note 2. Fund Balances with Treasure:

     This account balance represents the aggregate of all Army appropriations, The schedule
below identifies, by lknd type, the status of,the resources maintained in the Treasury accounts.




    Army’s Principl Financial Statementr for Fiscal Yean 1997 and 1996 MA 98104                             Annex B/Page 38
                                                                                                                   ANNEX B

I                     FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED                                            I

        Amounts that have been restricted by Congress, OMB, Treasury or DOD have been
    separately identified. Special, Deposit, and Receipt account balances have been consolidated
    into “Other Fund Types’*.

    A. Fund and Account Balances


                                                                                      Entity Assets
                                                                        Revolv-           Appro-          Other
                   (Thousands)                     Trust                   ing            priated         Fund
                                                   Funds                 Funds            Funds           m                       fatal


    Unobligated   Balance Available:
     Available                                         5580             SlO8.752        S3,664.820       $02,704               S3,876,856
     Restricted                                          89                16,544        1,029,151                 0             I ,045,784
    Reserve For Anticipated Resources                      0                      0                  0             0                         0
    Obligated (but not expensed)                           0                      0     25.837.928            1,093            25,839,02      I
    Unfunded Contract Authority                            0                      0       (122,999)                0              (122,999)
    Unused Borrowing      Authority                        0                      0                  0             0                         0
     Treasury Balance                                  $669             S125,296       S30,408,900       s103,797             S30,638,662




    B. Other Information. As of 30 September, 1997, there were a significant number of aged
    unresolved check issue discrepancies between the records of Treasury and Army. As a
    result, Fund Balance with Treasury is misstated by an indeterminate amount. The amount, as
    provided by Treasury, includes discrepancies caused by numerous events. Potential loss of
    funds result from the holder of the check altering the amount causing the negotiated amount
    to differ from the reported amount. Additionally, checks may be written by the Disbursing
    Office for an amount differing from the prepared disbursing voucher authorizing the
    payment. These categories of check issue discrepancies are considered to be immaterial in
    amount. Check issue discrepancy reports are prepared by Treasury based on a comparison of
    monthly accountability reports (showing dollar amount of checks issued) against monthly
    check issuance reports (showing check issue by serial number and amount). Discrepancies
    can arise when the accounting business month used by the Disbursing Office has a cut-off
    that differs from the calendar month used for the check issuance report. Early accounting
    cut-offs were common in the past and account for a significant number of the aged
    discrepancies. Early cut-offs were necessary due to the manually intensive processes
    required for closing out the monthly business. Improvements in accounting and disbursing
    systems now allow business to be conducted up to the last day of the month, thereby
    minimizing the occurrence of this timing problem. Another major cause of the aged
    discrepancies resulted from incomplete check issue reporting by the field Disbursing Offices
    to the Treasury. Technical advances made in the check issue reporting process have
    significantly enhanced the ability of the financial community to monitor and initiate research
    in a more timely fashion than was possible in the past.




~rmy’s Principal Financial S~atemen~rfor Fiscal Years 1997 and 19% L4A 9&1041                                          Annex E/Page 39
    ANNEX          B

I
                           FINANCIAL               STATEMENTS                  AND NOTE&UNAUDITED

      The fund balances of canceled and closed accounts in the amount of $3.5 Billion have been
reopened for the processing of accounting adjustments. Balances related to the reopened canceled
and closed accounts have no effect on these financial statements and have been disclosed for
information purposes only.



                                                                          Non-Entity Assets
                  (Thousands)
            Beginning Balance                                             ($134,337)
            Funds Collected                                              24,728,743
            Funds Disbursed                                             (24,38 1,042)
                    Ending Balance                                         $213,364




Note 3. Cash, Foreign Currencv. and Other Monetaw                                              Assets:



          (Thousands)                                              Entitv Assets                         Non-Entity   Assets

      A. Cash                                                                         55,933                             S 164,069
      B. Foreign Currency                                                             18,747                                     0
      C. Other Monetary Assets:
         (1) Gold                                                 0                                        0
         (2) Special Drawing Rights                               0                                        0
         (3) US Reserves in the Inter-
               national Monetary Fund                             0                                        0
         (4) Other                                                0                                        0
         (5) Total Other Monetary Assets                          0                        0               0                     0
      D. Total  Cash, Foreign Currency and
            Other Monetary Assets                                                    S24.680                             $164,069




    Amy’s Principal financial Strtementr for Fiscal Years 1997 and 1996 fM 98-104)                                             Annex B/page 40
                                                                                                   ANNEX          B

I                         FINANCIAL STATEMENTS AND NOT-UNAUDITED                                                      1

    Note 4. Investments, Net:

        The Army Gift Fund was established to control and account for the disbursement and use
    of monies donated to the Axmy and the receipt of interest arising from investment of such
    donations. The relat_edearnings are allocated to appropriate Army activities to be used in
    accordance with the directions of the donor. As of September 30, 1997, the Army reported
    $1 Million of investments.

                                            (1)            (2)                (3)        (4)            (5)
                  (Thousands)                                               Amorti-   Amortized
                                                         Market              zation   Prcmiuml      Investments
                                           cost           Value             Method    (Discount)       Net
    A Intragovernmental     Securities:
       (I)   Marketable                   Sl,OlO              so                            so        S1,OlO
       (2) Non-Marketable
         Par Value                                0              0                           0                0
       (3) Non-Marketable
         Market Based                             0              0                           0                0
       Subtotal                           Sl,OlO              so        -                   so        Sl,OlO


    B. Governmental Securities:
       (1)                                    so              so                            so            so
       (2)                                        0              0                           0                0
       (3)                                        0              0                           0                0
       Subtotal                               so              so                            so            so
       Total                              s1,010              so                            so        s1.010




&my's Principal
              Financial
                     Statements
                              fw Fiscal Yean 1997 and 1996 (M 98-104)                              AnnexBIPage41
I                      FINANCIAL             STATEMENTS                    AND NOTES-UNAUDITED                                              I

         Note 5. Accounts Receivable. Net:

             Accounts Receivable include all receivables due from federal and non-federal sources,
         net of allowance for estimated uncollectible                       accounts.       The allowance for uncollectible
         accounts was based on an analysis of collection experience by fund type for current and
         noncurrent receivables.


                                                    (1)                         (2)              (3)               (4)
                                                  Gross                 Allowance            Allowance             Net
                     (Thousands)                 Amount               For Estimated           Method             Amount
                                                   Due                Uncollectibles           Used               Due


           A. Entity Receivables:
                Intragovernmental               S1,146,531                             so                       S1,146,531
                Governmental                       229,823                  100.764                                129,059


           B. Non-Entity    Receivables:
                Intragovernmental                           so                         so                                 so
                Governmental                         62,638                           456                           62,182




        C. Other Information: Accounts receivable include reimbursements receivable and
        refunds receivable such as out-of-service debts from former service members, contractor
        debt and unused travel tickets.

        Note 6. Other Federal ~Intraeovemmental~                                  and Non-Federal        (Governmental)        Assets:
        Army has no activity in this asset category.

        Note 7. Loans and Loan Guarantees. Non-Federal Borrowers:                                         Not applicable to
        Army’s Financial Statements.

        Note 8. Inventorv, Net:

            Inventory held for current sales is contained in the revolving fund, Conventional
        Ammunition Working Capital Fund (CAWCF). “Inventory, Net” includes FY 1997,
        CAWCF adjustments for unserviceable, excess and obsolete inventory. The adjustments
        were based on “purpose codes” that identify the condition of the asset. The FY 96 Financial
        Statements included War Reserve Material as a component of Inventory in accordance with
        DoD guidance. However, FY 97 DOD guidance now requires that War Reserve Material be
        reported separately in the Statement of Financial Position. This change in classification
        accounts for the significant decrease of the FY 97 Inventory line over last year’s CFO
        reported values. The components of the Army’s inventory are shown on the following
        page. See also Note 3 1.

Note 8. Inventors,             Net (Continued):


Army3
    Principal Financial S~atememrfor Fiscal Years 1997   and 1996 fAA 98-104)                                             Annex B/page 42
                                                                                                                        ANNEX B

       I                       FINANCIAL               STATEMENTS                  AND NOTES-UNAUDITED                                   I




                                                           (1)                   (2)               (3)             (4)
                (Thousands)                         Inventory               Allowance        Inventory,         Valuation
                                                       Amount               For Losses            Net           Method


    A. Inventory Categories:
        (I) Held for Current Sale                    SI ,547,622             s35,757           Sl,Sll,865       Latest Acquisition
        (2) Held in Reserve for Future                                                                           cost
            Sale                                                  0                      0                  0
        (3) Excess, Obsolete and
            Unserviceable                                  14,724                        0          14,724
       (4) Held for Repair                                       0                  0                    0
           Total                                     S I S62.346             s35.757           S1.526.589




    Note 9. Work in Process: DOD guidance does not provide for work in process for General Fund
.   statements.

    Note 10. ODeratine Materials and Sutmlies (OM&Sh Net: Does not apply to Army General
    Fund financial statements.

    Note 11. StockDile Materials. Net: Not applicable to Army General Fund financial statements.

    Note 12. Seized ProDertv: Not applicable to Axmy General Fund financial statements.

    Note 13. Forfeited ProDertv, Net: Not applicable to Army General Fund financial statements.

    Note 14. Goods Held Under Price Sm~ort                               and Stabilization Prom-ams. Net: Not applicable
    to Army General Fund fmancial statements.




       Army’5   Principal Financial Snttzmmrr for Fisal Yean 1997 and 19% (AA 98-l 04)                                   Annex Wage 43
ANNEX           B

1                      FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED


Note 15. ProDertv. Plant and Eauimnent.                            Net:



                                                          (1)             (2)            (3)             (4)                  (5)
                                                       Depreci-                  -                                            Net
                       (Thousands)                      ation          Service       Acquisition     Accumulated            Book
                                                       Method           Life           Value         Depreciation           Value

        Classes of Fixed Assets

        A. Land                                          N/A                            S614,530                             S614.530
        B. Structures, Facilities,
            & Leasehold Improvements                     N/A                           33,637,032                          33,637,032
        C. Military Equipment                            N/A                           86.191.487                          86,191,487
        D. ADP Software                                  N/A                                6,986                               6,986
        E. Equipment                                     N/A                                     0                                  0
        F. Assets Under Capital
            Lease                                        N/A                            4,809,559              0           4,809,559
        G. Other                                         N/A                               45,226              0               45,226
        H. Natural Resources                             N/A                               17,223              0               17,223
         I. Construction-in-Progress                     N/A                            6,708,693              0            6,708,693
                 Total                                                               S132.030.736              so       Sl32.030.736




            Depreciation         is not currently recorded for assets financed by general fund appropriations
       because the property systems were not originally developed to provide this data. DOD is in
       the process of addressing this reporting deficiency. Real property assets at overseas
       locations are classified as Capital Leases in accordance with DOD accounting policy. The
       policy requires that real property assets recorded under foreign government agreements
       permitting DOD occupancy of facilities - which require maintenance to be provided by DOD -
       be recorded as a capital lease. These “capital leases” do not fit the criteria of a typical capital
       lease due to the nature of the agreements with foreign governments. Consequently, no
       capital lease liability has been established. See also Note 18.

               The reduction of “Natural Resources” is based on the revised method of calculating
       the value of timber reserves reported in the financial statements. FY 97 values are based
       only on the number of board feet planned to be sold in FY 98. FY 96 reported values were
       based on the total board feet estimated to exist on Army property without regard for whether
       the timber would ever be harvested. See also Note 1.M.

          Government furnished material and property (GFM/GFP) are reported quarterly in the
       departmental general ledger. Contractors are also required to maintain accountable records



Army’s Principal Financial Statementsfoe fiscal Years 1997 and 19% MA 98-104                                        Annex B/page 44
                                                                                              ANNEX       B


1                     FINANCIAL             STATEMENTS                  AND NOTES-UNAUDITED                    1

     for GFMGFP. The contractor data is used to supplement the general ledger balances.
     Balances reported in this asset category include items related to the Working Capital Fund
     (WCF). A practical method for breaking out WCF and non-WCF GFMGFP balances has
     not been developed. However, WCF amounts included in the GFMGFP values are believed
     to be immaterial to the balances reported in the financial statement line “Property, Plant and
     Equipment”.

     Note 16. Debt:’

         The Army’s proportionate share of public debt and related expenses of the federal
     government are not included in the financial statements. Debt incurred by the federal
     government and the related interest are not apportioned to federal agencies. The Army’s
     financial statements do not reflect any portion of the public debt or interest thereon, nor do
     the statements reflect the source of public financing (e.g. debt issuance, tax revenues). The
     related interest costs incurred in the construction of Army facilities are also not capitalized
     since Treasury does not allocate interest costs to the benefiting agencies.

    Note 17. Other Liabilities:

         The schedule on the following page shows those liabilities that will be liquidated with
    funds that have already been received (Covered by Budgetary Resources) as well as those
    liabilities that will have to be funded with future appropriations (Not Covered by Budgetary
    Resources). Additionally, components making up the balances in “Other Liabilities” are
    further segregated by source and include “Other Federal” (Intragovernmental) and “Non-
    Federal” (Governmental).

        The FY 97 value for Line 4a.(4) “Other Intragovernmental Liabilities” is significantly
    higher than FY 96. This apparent increase is due primarily to the impact of an abnormal
    balance reported last year in an Army deposit fund. The abnormal balance reported in the FY
    96 CFO Report was the result of erroneous postings of cross disbursement transactions
    (payments and collections made by another DOD entity citing Army appropriations).

         Legal actions brought by employees of the Army for on-the-job injuries fall under the
    Federal Employees Compensation Act (FECA) administered by the Department of Labor
    (DOL). DOL bills Army annually as DOL claims are paid. However, payment on these bills
    is deferred two years to allow for funding through the budget process. Army has recorded
    $337 Million for DOL bills that, while received, are not yet payable out of current
    appropriations.




~my’s Principal Financial Stmmentr for Fiscal Yean 1997 and 19% &A 98-l 04)                   Annex &Page 45
ANNEX           B

I                      FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED

       A. other Liabilities Covered by Budgetary Resources:                                      (Thousands)

                                                              Noncurrent           Current
                                                              Liability            Liability               Total
       1. Intragovernmental
       (a) Unearned Revenue, Advances                                SO            $736,555                $736,555
       (b) Treasury Cash Advances                                     0              190,525                 190,525
       (c) Deposit Fund Liabilities                                                  572,580                 572,580
       Total                                                                     S 1.499.660             S 1.499.660



                                                              Noncurrent           Current
                                                              .Liability           Liability               Total
      2. Governmental
      (a) Unearned Revenue, Advances                                 so            5255,596               $255,596
      (b) Deferred Credits                                            0              63,486                 63,486
       (cl                                                            0                    0                      0
      Total                                                          so            S3 19.082              53 19.082

      B. Other Information:

      C. Other Liabilities Not Covered by Budgetary Resources:

                                                              Noncurrent        Current
                                                              Liability         Liabilitv                  Total
      1. Intragovernmental
      (a) Canceled Budget Authority                                  so                     so                     so
      (b) FECA                                                        0             337.434                337.434
      Total                                                                        s3371434               s3371434
                                                             so


                                                              Noncurrent        Current
                                                              Liability         Liability                  Total
      2. Governmental
      (a) Canceled Budget Authority                                  so              $1,352                  S1,352
      (b) Accrued Annual Leave, Civ Unfunde                           0             729,121                729,121
      (c) Accrued Annual Leave, Mil Unfunde                           0             319,283                3 19,283
      (d) Other                                                       0          26,662,399             26,662,399
      Total                                                                     S27.712.155            $27.7 12.155
                                                             so


       D. Other Information:

           The following schedule provides a breakout showing the various liabilities that account
       for the majority of recorded “Other Non-Federal (Govemmental) Liabilities” not covered by
       budgetary resources. Liabilities relating to Chemical Demil and Environmental Restoration-
       BRAC Programs were not recognized in previous CFO Reports. Effective FY 97, Statement



~rmy’s Principal Financial Statementsfor Fiscal Years 1997 and 19% (M 96-104)                                           Annex B/page 46
I                     FINANCIAL               STATEMENTS                  AND NOTES-UNAUDITED                                I


     of Federal Financial Accounting Standards (SFFAS) Number 5 requires these liabilities be
     recorded in the records of Army.

                                                                        (Thousands)

                               Chemical Demil Program Stockpile                            9,500,000
                               Chemical Demil Program Non-Stockpile                         1,100,000
                               Environmental Restoration                                    6,117,OOO
                               Environmental Restoration-FUDS                               7,700,000
                               Environmental Restoration-BRAC                                 972,000
                               Low Level Radioactive Waste Cleanup                            169,514
                               Overseas Restructure/Downsizing-Panama                         202,400




    - Environmental            Compliance/Restoration                    - Liabilities for the Army’s Environmental
     Program are primarily comprised of estimates to clean up contamination at Army
     installations.

    - Radioactive    Waste - Liabilities are recognized or disclosed as a result of having to
     correct the results of improper handling and disposal of low level radioactive waste.

    - Restructuring           - Anticipated costs relating to the movement of troops, material and
    equipment in connection with consolidation of missions and the turnover of facilities.

    Note 18. Leases:

        As of September 30,1997, the Army was committed to numerous operating leases and
    rental agreements. Generally, these leases and agreements were for the rental of equipment,
    space, rights of way, and operating facilities. Real property assets at overseas locations are
    classified as Capital Leases in accordance with DOD accounting policy. The policy requires
    that real property assets recorded under foreign government agreements permitting DOD
    occupancy of facilities - which require maintenance to be provided by DoD - be recorded as a
    capital lease. These assets will revert to foreign ownership once the treaties expire. The
    schedules on the following page pertain to Operating and Capital Leases for Section 801
    family housing leases (privately owned housing leased by the Army).




~rrny’s Priil   Financial Statementr for Fiscal Years 1997 and 1996 &A g&104)                               Annex B/page47
ANNEX            B

I                       FINANCIAL              STATEMENTS                  AND NOTES-UNAUDITED                                  I

                           Capital Leases - Section 801 Family Housing (Rounded to Dollars)
                                                 Future Payments Due by Fiscal Year:
                                                   1998                      I       f 20,784,925
                                                   1999                                20,784,925
                                                   2000                                20,784,925
                                                   2001-                               20,784,925
                                                   2002                                20,784,925
                                              After 5 Years                           128,620,599
                                              Total FutureLease Payments             6232,545,224
                                          Less: EstimatedExecutory Costs’             (39,753,982)
                                                    Less: ImputedInterest’            (68.5 17,765)
                                                Net Caaital Lease Liabilitv          S 124.273.477

                         1 Future executory costs were based on the FY 97 actual
                         executory costs.
                         2 Amount necessary to reduce net minimum lease payments to
                         present value calculated at the incremental borrowing rate at the
                         inception of the leases.

                     Operating Leases - Section 801 Family Housing (Rounded to Dollars)
                                                 Future Payments Due by Fiscal Year                      II
                                                 1998                             $ 16,369,424
                                                 1999                               16,369,424
                                                2000                                16,369,424
                                                2001                                16,369,424
                                                2002                                16,369,424           r
                                            After 5 Years              I            97,948,049
                                         Total FutureLease Payments              $179,795,169



Note 19. Pensions and Other Actuarial Liabilities:

        Future workers’ compensation figures are provided by the Department of Labor. The
liability for future workers’ compensation (FWC) benefits includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases. The liability is
determined using a method that utilizes historical benefit payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. Consistent with past
practice, these projected annual benefit payments have been discounted to present value using the
Office of Management and Budget’s, June lo,1997 economic assumptions for 1O-year Treasury
notes and bonds. Interest rate assumptions utilized for discounting were as follows:

         Year 1           Year 2               Year 3               Year 4       Year 5 and thereafter
         6.24%            5.82%                5.60%                5.45%              5.40%

     The amount of unfunded FECA liability accrued as of September 30, 1997 was $1.5 Billion.
A corresponding amount has been established as a titure funding requirement.



 &my’5    Principal f inmciai s01emen~ for Fiscal Yews 1997 and 19% IM 9a104)                                 Annex B/Page 48
                                                                                                    ANNEX         B

I                     FINANCIAL              STATEMENTS                   AND NOTES-UNAUDITED                          1


     Note 20. Net Position:

     Net Position is comprised of the following components:

         Unexpended appropriations - amount of budget authority remaining for disbursement
    against current or future obligations. Unobligated balances are classified as available or
    unavailable. Certain unobligated balances are restricted for future use and are not available
    for current use. “Undelivered Orders” represent those goods and services that have not yet
    been received/performed. Multi-year appropriations remain available to the Army for
    obligation in future periods. However, unobligated balances associated with appropriations
    expiring at fiscal year end remain available only for obligation adjustments until the account
    is closed. Generally speaking, accounts close five years after the appropriation expires.

         Invested capital - represents the net investment of the Government in the Army.
    Includes the initial investment and subsequent appropriations to finance program activities
    and the net balance of assets and liabilities that have been transferred in and out from/to DOD
    Components or other U.S. Govemment Agencies without reimbursement. Also, for General
    fund appropriations, includes the cumulative net difference between (1) expenses and losses
    and (2) financing sources to include appropriations, revenues and gains.

        Cumulative results of operations - represents the cumulative net difference between (1)
    expenses and losses and (2) financing sources (includes appropriations, revenues and gains) of
    the Trust, Revolving, and Special Funds.

         Other - represents other components of net position not specifically identified above. In
    prior years, Army financial statements showed balances in this account relating to
    miscellaneous receipts. Guidance from the Department of the Treasury requires the
    miscellaneous receipt balances to be excluded from Army’s “Net Position” since the receipts
    are considered withdrawn by Treasury immediately upon collection.

        Future Funding Requirements                       - Accrued expenses such as annual and military leave
    earned but not taken are not funded in the period the expense is recorded. These future
    funding requirements are recognized as an offset to “Net Position”.




&my’s Rincipal financial Statements for Fiscal Yean 1997 and 19% (AA 96-104)                         Annex B/Page 49
I                      FINANCIAL, STATEMENTS                               AND NOTES-UNAUDITED                              I


   Net position is presented in the following table by fund type. “Other” fund types have been
included in the “Appropriated Funds” column.

    (Thousands)                                                                       Appro-
                                              Revolving                  Trust        priated
                                                Funds                    Funds        Funds                  Total

A. Unexpended              .
   Appropriations:
    (1) Unobligated,
     a. Available                                      SO                 $580       %3,767,525             $3,768,105
     b. Unavailable                                      0                    0          906, I 52             906,152
    (2) Undelivered Orders                              0                     4      22,6 12,020            22,6 12,024
B. Invested Capital                                42,720                 1,010     18 1,549,Oll           181,592,741
C. Cumulative Results
   of Operations                                 2 74,038                      0       (675,5 73)             (401,535)
D. Other                                                0                      0               0                      0
E. Future Funding
   Requirements                                        0                       0    (29,655,93 1)          (29,655,93 1)
F. Total                                       $3 16.758                $1.594     %178.503.204          $178,821,556



      A breakout of line (E) from the schedule above follows.                      Also see Note 17 for additional
information on “Other Governmental Liabilities”.

                                          FUTURE FUNDING REOUIREMENTS
                                                  (Thousands)

        Other Governmental Liabilities                                                26,662,397
        Annual Leave                                                                   1,048,404
        Workman’s Comp. and Medical Claims                                               33 7,434
        Actuarial Liability for Federal Employees -
        Future Workman’s Comp Benefits                                                 1,482,069
        Canceled Budget Authority (/VP)                                                    1,353
        Capital Lease Liability                                                          124,273
                                         .
        Other                                                                                   2
                          Total                                                      529,655,93I



       Note 21. Taxes: Not applicable




Army’s Principal Financial Snfemenrr for Fircat Years 1997 and 19% MA 98104)                                Annex Wage 50
                                                                                                                   ANNEX       B


I
                          FINANCIAL               STATEMENTS                   AND NOTES-UNAUDITED

      Note 22. Other Revenue and Financirw Sources:

         (Thousands)                                                                          1997               1996


       A. Other Revenues and Financing Sources:
          (1) Investment Gains                                                                       so -           $212
          (2) Miscellaneous Reimbursements                                                   2,333,553           471,448
          (3) Inventory Gains                                                                         0          457,944             -
          Total                                                                            $2,333,553           $929,604
                                                                                          W.                -

      B. Other Information:

          Statement of Federal Financial Accounting Standards (SFFAS) Number 5 established
      accounting and reporting standards for liabilities relating to the Federal employee benefit
      programs (Retirement, Health Benefits and Life Insurance). The adoption of SFFAS-5 is
      required for FY 97 and results in a significant increase of “Other Revenues and Financing
      Sources” over previous reporting years. The imputed pension and Other Retirement Benefits
      (ORB) recorded in Miscellaneous Reimbursements follows:

                                                                                    (Thousands)

          CSRSFERS Retirement                                                       $1,257,285
          Health                                                                     $ 375,600
          Life Insurance                                                              $   1,374



               The Office of Personnel Management (OPM) is the administrative entity for pensions
      and other retirement benefits (ORB). OPM accounts for and reports the pension liability in
      the financial statements while the employer discloses the imputed financing. OPM actuaries
      provide the normal cost rates which are used to calculate the imputed financing.




    ~rmy’s Principal Financial Statementsfoe Fiscal Years 1997 and 1996 MA 98104)                                   Annex Wage 5 1
    ANNEX               B

I
                                FINANCIAL               STATEMENTS                     AND NOTES-UNAUDITED                                I

    Note 23. Program or ODeratine ExDenses:

              (Thousands)                                                                        1997

    A. Operating Expenses_ by Object Classification:
       (1) Personal Services and Benefits                                                   $33,321,413         $31,612,018
       (2) Travel and Transportation                                                          2,324,235           2,947,507
       (3) Rental, Communication and Utilities                                                1,454,370           1,300,032
       (4) Printing and Reproduction                                                              93,722              86,056
       (5) Contractual Services                                                              14,411,961          15,518,590
       (6) Supplies and Materials                                                             3,757,376           4,442,067
       (7) Equipment not Capitalized                                                            513,850             476,632
       (8) Grants, Subsidies and Contributions                                                   130,511             123,212
       (9) Insurance Claims and Indemnities                                                       55,455              69,36 1
       (10) Other (describe):
             (a) Annual Leave Expense                                                          1,554,068          1,213,528
       (11) Total Expenses by Object Class                                                  $57,616,961         $57,789,003




    B. Operating Expenses by Programi
       (1) Revolving Fund                                                                      $137,379            %184,226
       (2) General Fund                                                                      57,479,343          57,604,657
       (3) Trust Fund                                                                                239                 120
       (4) Unallocated Expense                                                                          0                   0
               Totals                                                                       $57.616.961         $57.789.003



    Note 24. Cost of Goods Sold:

(Thousands)



Public                                                                 $497,750                    $627,185
Intragovernmental                                                     5,384,OlO                    5,552,691
                                                                    !§5,88 1,760                 $6,179,876
                                                                ,                            t              -




    Army’s   Principd   Financial   Stvwnts   for Fiscal Years 1997 and 19%   MA 98-104)                                Annex B/Page 52
                                                                                                       ANNEX B

I                         FINANCIAL               STATEMENTS                   AND NOTES--UNAUDITED

       Note 25. Other ExDenses:

          The adoption of SFFAS-5 is required for FY 97 and results in a significant increase of
      “Other Expenses” over previous reporting years. Period expenses are now required to be
      recorded on the Army’s statements for costs associated with the pension, health benefits, and
      life insurance programs. The following represents the imputed expense for pensions and
      Other Retirement Benefits (ORB) recorded in FY 97:

                                                                                    (Thousands)

          CSRWERS Retirement                                                        $1,257,285
          Health                                                                    $ 375,600
          Life Insurance                                                             $   1,374


          The Office of Personnel Management (OPM) is the administrative entity for pensions and
      other retirement benefits (ORB). OPM accounts for and reports the pension liability in the
      financial statements while the employer discloses the imputed expenses. OPM actuaries
      provide the normal cost rates which are used to calculate the imputed expenses. See also
      Note 22.

                  (Thousands)                                                              1997       1996
       A. Other Expenses:
          (1) Losses on Disposition of Assets                                                 $13           $0
          (2) Inventory Losses or Adjustments                                              12,509      733,513
          (3) Other Miscellaneous Losses                                                    1,405        1,623
          (4) Other Expenses                                                            1,871,162
          Total                                                                        $1,885,089     $735,136




       Note 26. Extraordinarv                  Items: Not applicable



      Note 27. Prior Period Adiustments:        Statement of Federal Financial Accounting Standard
      Number Six “Property, Plant, and Equipment’, requires that the offsetting charges against
      liabilities recognized for environmental cleanup costs are to be recorded as a prior period
      adjustment. Accordingly, Army has recorded prior period adjustments of $15.1 Billion in
      FY 97 for estimated liabilities relating to cleanup costs.




    ~rmy’s Principal financial Statementsfor Fiscal Years 1997 and 1996 (AA 98104                       Annex B/Page 53
ANNEX          B

1                      FINANCIAL             STATEMENTS                  AND NOTE&UNAUDITED                              1

Note 28. Non-Ooeratine                  Changes - (Transfers and Donations):



                                                                          1997              1996
A. Increases:
   (1) Transfers-In:                                                   $34,574,194      ($2,8 11,700)
   (2) Unexpended Appropriations                                          (175,574)        (504,?58)
   (3) Donations Received                                                          0               0
   (4) Other Increases                                                  15,095,046          773,655
   (5) Total Increases                                                 $49,493,666      (%2,542,303)



B. Decreases:                                                            1997              1996
   (1) Transfers-Out:                                                  $21,142,151     $12,586,930
   (2) Donations                                                                  0                  0
   (3) Other Decreases                                                   9,460,375       4,264,858
   (4) Total Decreases                                                 %30,602,526     $16,851,788

C. Net Non-Operating              Changes (Transfers)                  $18,891,140     ($19.394.091)
                                                                 >

    Note 29. Intrafund Eliminations:

          The schedules on the following pages show the values of the transactions that were
    required to be eliminated from the Statement of Financial Position and the Statement of
    Operations (and Changes in Net Position) since they represented activity between Army
    appropriations or activity with other DOD and Federal entities.




&my’s Principal Financial Slatcmmts for Fiscal Yean 1997 and 19% (AA 9B1041                              Annex Wage 54
                                                                                                                 ANNEX B

       I                        FINANCIAL           STATEMENTS                  AND NOTE&UNAUDITED                                 I

           Schedule A. Records sales within the General Fund activity by transactions and according to
           general ledger amounts for accounts receivable, revenues, uneamed revenues, and collections.
           It is presumed that an equal amount of accounts payable, expenses, advances Ad
           disbursements have been entered on the accounting records of the purchasing activity.
                                                                                         -

           Selling Activity:                           Column A             Column B          Column C        Column D


                                                      Accounts                               Unearned
                                                       Receivable        Revenue             Revenue         Collections
               Operation and Maintenance               $495,323             S2,707,696                  SO   S2,632.459
               Procurement                               $7,198                570,030                  SO      $65,647
               Research and Development                 S87,645               $791,773                  SO     s777,019
               Military   Construction                  $43.674               s950.023                  SO   s1,009,3 I5
.
               Other funds and accounts                $150,776               S946.296                  SO     S728,048
               Unearned Revenue                                                      so        $568,935               so
               Total                                  x%x&                  $5.465.8 I8        S568.935      S5,2 12,488




       Customer Activity:                             Column A             Column B           Column C       Column D


                                                      Accounts
                                                      Payable            Expenses            Advances        Disbursements
               Operation and Maintenance              s495,323              S2,707.696                  so   S2,632,459
               Procurement                               57,198                s70,030                  so      s65.647
               Research and Development                 S87.645               s791,773                  SO     s777,019
               Military   Construction                  $43,674               $950,023                  so   Sl,OO9,315
               Other funds and accounts               S150,776                $946,296                  SO     $728,048
              Advances                                        SO                     SO        S623,592               SO
              Total                                   S784.616              S5.465.8 18        S568.935      S5.212.488




    Schedule B. Not applicable




       Army’sf’rincipalFinancialSotemena for Fiscal Years 1997 and 19% (M 98-l 04)                                Annex B/page55
ANNEX B

I                       FINANCIAL+ STATEMENTS                                 AND NOTES-UNAUDITED                                    I


    Note 29. Intrafund              Eliminations          (Con?):



    Schedule C. Records sales or services between the Army and other DOD reporting entities by
    transactions and according to general ledger amounts for accounts receivable, revenues,
    unetied revenues, and collections. It is presumed that an equal amount of accounts payable,
    expenses, advances and disbursements have been entered on the accounting records of the
    purchasing activity.

           Selling Activity:                               Column A               Column B         Column C      Column D

                                                           Accounts                                Unearned
                                                           Receivable             Revenue          Revenue       Collections
               Department of the Army                      S640,818                 S4,772.171     N/A           S&787,243
               Unearned Revenue                                  so                         so        S627.573            so
               Total                                       S640.8 I8                S4,772,171        S627.573   S4,787,243



         Customer Activity:                               Column A                Column B         Column C      Column D

                                                Accounts
                                                Payable                           Expenses         Advances      Disbursements
              Department of the Army                   so                                     so   N/A                    so
              Department of the Navy             S80,609                              S527.657     N/A             S500,929
              Department of the Air Force        683,574                              6690,638     N/A             S711,772
              Army WCF                           524,672                              5268,121     N/A             S273,OOI
              Navy WCF                           Sl5,759                               S56.242     N/A              S52,191
              Air Force WCF                         s553                               Sll,l73     N/A              Sll,725
              DLA WCF                            s13,340                               S84,205     N/A              S95.083
              DISA WCF                            S2,698                                S8,243     N/A                S8,007
              DFAS WCF                           S40,822                               574,508     N/A              S89,224
              DeCA WCF                           515,690                               S39,961     N/A              536,660
              JLSC WCF                            57,453                                S3.167     N/A               (63,793)
              Other WCF                          Sl3,739                               s91,441     N/A              590,632
              U.S. TRANSCOM WCF                   S2,916                               S30,675     N/A              s39,055
              DOD Military Retirement Trust Fun        so                                     so   N/A                    so
              National Defense Stockpile              so                                     so    N/A                    so
              U.S. Army Corps of Engineers       s13,949                               S43,65 I    N/A              539,962
              Other Defense Organizations       5325,044                            S2,842.489     N/A           S2.842,795
              Advances                                                                       so       S627,573            so
              TOti                                                                  S4.772.171        %27,573    S4.787,243




Army’s Principal Financial Statements for Fiscal Years 1997 and 19% W   98-104)                                    Annex B/Page 56
                                                                                                             ANNEX B

   I                       FINANCIAL               STATEMENTS                    AND NOTES-UNAUDITED                            1

    Note 29. Intrafund Eliminations                         Kon’tj:

Schedule D. Records sales or services between the Army and other Federal reporting entities by
transactions and according to general ledger amounts for accounts receivabIe, revenues, unearned
revenues, and collections. It is presumed that an equal amount of accounts payable, expenses,
advances and disbursements have been entered on the accounting records of the purchasing
activity.

 Selling Activity:                                   Column A             Column B           Column C       Column D

                                                    Accounts                                 Unearned
                                                    Receivable            Revenue            Revenue        Collections
       Department of the Army                       $227,687                  S322,705            n/a         Sl98,967
       Unearned Revenue                                    SO                        so           S7.02 1             so
       Total                                        S227,687                  6322,705            S7,02 1     S 198,967



Customer Activity:                                  Column A              Column B           Column C       Column D



                                                    Payable               Expenses           Advances       Disbursements
    Defense Security Assistance Agency         SO                                       so        n/a                 so
    General Services Administration    s141,451                                5181.087          n/a           S8 1,050
    Interior                                s552                                  s1,117         n/a            S 1,264
    NASA                                514,271                                  S29.8 15        da            529,898
    State                                 52,409                                  s4,749         n/a            s4,371
    Transportation                      Sl4,181                                 Sl3,OZO          n/a            57,274
    Veterans Affairs                      Sl,O28                                  S2,635         da                s170
    Dept of Commerce                      Sl.934                                     S524        n/a               S489
    Dept of Treasury                      s4,175                                S-11,893         n/a           S12.130
    Dept of Justice                     SlO.834                                 S20.425          da            SJ 8,865
    Dept of Labor                              s7                                     SJO        n/a                Sll
    Dept of Energy                          S716                                  S2.183         n/a            s1.959
    Dept of Agriculture                     66%                                   s1.013         n/a              S787
    Republic of Panama                        570                                     S64        n/a                s37
    Federal Emergency Mgt                s3,513                                    (S177)        n/a              S76l
    Environmental Protection                6554                                  S 1,465        n/a            Sl.772
    Dept of Health Services              S4,076                                   s3,930         n/a            s4277
    Dept of Housing                         6822                                    S888         n/a                S72
    Legislative Branch                         so                                     s14        da                 Sl4
    Judiciary                                  so                                     SJO        da                 SJO
    Offtce of the President              S2J89                                    S9,967         n/a            S2.284
    Energy Research                          S68                                    S251         n/a              s290
    Selective Service System             S7,858                                   $4,987         n/a            S1,6%
    Nuclear Regulatory Comm                 s170                                    S427         n/a              S380
    All Other Federal Agencies          s15,913                                 S32,408          n/a           S29,106
    Advances                                   so                                      SO        S7,02 I             so
    Total                              S227.687                                5322,705          S7.02 I     S 198,967




   Army’s Principal Financial Statements for Fiscal Years 1997 and 1996 (AA 98-104)                           Annex B/Page 57
ANNEX B

I                            FINANCIAL                STATEMENTS                     AND NOTES-UNAUDITED                     1



         Note 30. Contineencies:

             The Army is subject to various asserted claims for over %100 Million. These claims are
        in various phases ranging from investigation to appeal. While no opinion has been expressed
        regarding the likely outcome of a specific claim or associated loss, experience indicates that
        many such claims either have a remote chance of materializing, are settled for less than
        claimed, or are dismissed altogether.

        Note 31. Other Disclosures:

            FY 96 reported values for “Other Entity Assets” included $5.5 Billion of military
        property in the hands of contractors. Army Audit Agency @AA) recommended this category
        of Government Furnished Property no longer be included in the financial statements. Field
        work by AAA determined that the values reported by the contractors for this category of
        property were highly unreliable. Army concurred with the recommendation and excluded this
        category of property from the FY 97 financial statements.

            The value reported on Line 1.b (5), “Advances and Prepayments” appears significantly
        higher than reflected in FY 96’s CFO Statements due to the application of DoD policy
        guidance requiring progress payments to be reported on Line 1.b (5). In previous years,
        progress payments were reclassified as “Construction in Progress” and included in the “Plant,
        Property, and Equipment” line of the Statement of Financial Position.

             War Reserves: The reporting of items held for future use in case of conflict or other
        emergent need is not clearly addressed in the Statements of Federal Financial Standards
        (SFFAS). For example, munitions could be reported as operating materials and supplies, as
        general property, plant and equipment (PP&E), or as National Defense PP&E. Since these
        items are not held for sale, they will not be reported as inventory. Until the SFFAS is
        clarified, items held for f&ure use, in case of conflict or other emergent need, will be reported
        as War Reserves. Reported values show a significant increase over last years reported values,
        however, the impact of this variance has yet to be determined.

              Problem Disbursements: The Army transacts a significant portion of its business
        utilizing a centralized clearance system at DFAS-IN which allows an installation to make
        disbursements citing another installation’s funds. The transactions include ix&a-service
        transactions by others, interfund billings and cross-disbursements by others. Problem
        disbursements represent disbursements of Army tids that have been reported to Treasury but
        have not yet been precisely matched against the specific source obligation giving rise to the
        disbursement.

             Problem disbursements represent a significant financial management concern because:
        (1) the accuracy of accounting reports is affected; (2) available funding picture is



Amy’s    Principal   Financial   Sta~ementr for Fiscal Years 1997 and 19%   (AA 9B104)                     Annex B/Page Sg
                                                                                                      ANNEX B

    I                      FINANCIAI,              STATEMENTS                   AND NOTES-UNAUDITED

        distorted; and (3) the research and resolution process can be very labor intensive. Initiatives
        such as prevalidation of payments, are well underway to reduce or eliminate problem
        disbursements. In the case of prevalidation efforts, entitlement personnel and accountants are
        now required to jointly ensure that an obligation of funds sufficient to cover the amount of the
        proposed disbursement has been recorded in the accounting records. This validation must be
        done for all payments exceeding a sp&ified threshold. Eventually, all payments will be
        prevalidated prior to the disbursement of funds.

            The following table shows the unmatched transactions and Negative Unliquidated
        Obligations (NULO’s) as of September 30, 1997. Increases in the unmatched disbursements
        over FY 96 values are attributed to changes in the reporting process. FY 96 did not include a
        category of unmatched disbursements that related to partially cleared “Transactions By
        Others.” The increase in NULO’s over FY 96 are attributed to improvements made in the
.       data gathering, analysis and NULO reporting processes.

                                                                            ($‘s in Thousands )

                                                                      FY 97                 FY 96
                             Unmatched                               $883,737              $118,910
                             NULO                                    $286,894              $ 90,557



             Accounts Payable: Accounts payable and operating expenses are understated by the
        accrual amount that should be recorded for contractor services/goods that have been
        performed/delivered but not yet paid. Since current contractor payment systems were not
        designed to provide this accrual data for entry to the accounting systems, a reasonable accrual
        estimate has not been determined. Existing systems/processes are being modified to provide
        this accrual data for future use in Army’s financial statements. Line 4a. (1) Accounts Payable
        (Federal) and Line 4b. (1) Accounts Payable (Non-Federal) were significantly lower than last
        year as a result of abnormal “Accounts Payable” balances reported in the Army Procurement
        Appropriations. These abnormal balances resulted from the inability of the accounting
        system to generate timely accruals based on the receipt of goods and services. Additionally,
        charges to erroneous appropriations by the bill paying office create an understatement of
        accounts payables on the books of Army. In the case of erroneous charges, the bill paying
        office can charge Army funds for contracts that should be funded by another DOD Agency.
        Erroneous charges have misstated the true accounts payable balances and will be corrected in
        subsequent periods.




    &my’s Principal Financial Statemenrr for Fiscal Years 1997 and 19% (AA 96-104)                    Annex E/Page 59
ANNEX                C



                                       SUPPORTING                        AUDIT REPORTS


           1. Proposed Adjustments and Comments Regarding Army’s FY 97
              Annual Financial Report (AA 98-95)

           2.    Report on Internal Controls and Compliance With Laws and
                 Regulations (AA 98-xXx)

           3.    Financial Reporting of Section 801 Family Housing Leases
                 (AA 98-57).

           4.    Financial Reporting of Wholesale Munitions (AA 98-98)

           5.    Financial Reporting of Wholesale Equipment (AA 98-xXx)

           6.    Financial Reporting of Accounts Receivable (AA 98-xXx)

           7.    Financial Reporting of Selected Liabilities (AA 98-xxx)

           8.    Financial Reporting of Mission Assets (AA 98-xXx)

           9.    Financial Reporting of Real Property (AA 98-m)

10.              Financial Reporting of Fund Balance With Treasury (AA 98-xXx)

11.             Audit of the Compilation of the Army’s FY 97 Financial Statements
                at the Defense Finance and Accounting Service-Indianapolis
                Center (Inspector General, DOD, Project #7FI-203 1)




ttrrny’r    Principal financial   ~tamnen~s   for Fiscal Years 1997 and 19% fM 98-KM1    &mm   UPap   60
                                                                                  ANNEX        D



          OTHERS                  RECEIVING                     COPIES OF THE REPORT


Chief of Staff, Army
Under Secretary of the Army
Vice Chief of Staff
Assistant Secretary of the Army (Civil Works)
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installations, Logistics and
   Environment)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Assistant Secretary of the Army (Research, Development and Acquisition)
General Counsel
Director of the Army Staff
The Inspector General
Chief of Legislative Liaison
Chief of Public Affairs
Chairman, Army Reserve Forces Policy Committee
Deputy Chief of Staff for Logistics
Deputy Chief of Staff for Operations and Plans
Deputy Chief of Staff for Personnel
Assistant Chief of Staff for Installation Management
Chief, National Guard Bureau
Deputy Assistant Secretary of the Army for Budget
Director, Program Analysis and Evaluation
Commander in Chief, U.S. Army, Europe and Seventh Army
Commanders
   U.S. Army Forces Command
   U.S. Army Training and Doctrine Command
   U.S. Army Materiel Command
   U.S. Army, Pacific
   U.S. Army Military District of Washington
   U.S. Army Corps of Engineers
   U.S. Army Criminal Investigation Command
   U.S. Total Army Personnel Command
   U.S. Army Aviation and Missile Command
   U.S. Army Communications-Electronics Command
   U.S. Army Industrial Operations Command
   U.S. Army Tank-automotive and Armaments Command
   U.S. Army Logistics Evaluation Agency
   U.S. Army War Reserves Support Command
   XVIII Airborne Corps and Fort Bragg
   I Corps and Fort Lewis
   3rd Military Police Group, U.S. Army Criminal Investigation Command
   6th Military Police Group, U.S. Army Criminal Investigation Command

~rmy’s Principal Financial Statements for Fiscal Years 1997 and 19% IM   9fhXX)    Annex D/Page 6 I
ANNEX         D



Executive Director, U.S. Army Materiel Command Logistics Support
  Activity
Directors
  Armament and Chemical Acquisition and Logistics Activity
   U.S. Army Research Laboratory
   U.S. Army Center for Public Works
Commandant, U.S. Army Logistics Management College -
Director, Center for Army Lessons Learned

Inspector General, Department of Defense
Directors
   Defense Finance and Accounting Service
   Defense Finance and Accounting Service-Indianapolis Center
   Defense Finance and Accounting Service-Columbus Center
   Defense Intelligence Agency
   Defense Logistics Agency
   Defense Logistics Studies Information Exchange
Auditors General
   Air Force Audit Agency
   Naval Audit Service




&my’s Principal financial Sluementr for fiscal Yean 1997 and 1996 IM   99-xXx)   Annex D/Page 62
Appendix C. Audit Process
   Audit Work Performed. To fulfill our responsibilities under Public Law 101-576,
   the “Chief Financial Officers Act of 1990,” as amended by Public Law 103-356,
   the “Federal Financial Management Act of 1994,” we performed oversight of the
   independent audit conducted by the Army Audit Agency (AAA) of the Army
   General Fund Financial Statements for FYs 1997 and 1996. Our purpose was to
   determine whether we could rely on the AAA audit. We reviewed the AAA audit
   approach and planning and monitored the progress of the audit at key points.

            Reviewing the AM Audit Approach. We used the “Federal Financial
   Statement Audit Manual, n January 1993, issued by the President’s Council on
   Integrity and Efficiency, and the ‘Financial Audit Manual,” December 12, 1997,
   issued by the General Accounting Office, as the criteria for reviewing the AAA
   audit approach. Specifically, we reviewed the engagement letter, documentation
   for the entrance conference! formulation of strategy, and audit plans and. programs.
   ~~~Aparticipated      m audit plannmg conferences and workshops coordmated by
            .

           Monitoring Audit Progress. Through the DOD Financial Statement
   Executive Steering Committee and Integrated Audit Process Team, we provided a
   forum for a centrally managed exchange of guidance and information leading to a
   focused DOD-wide audit of the DOD Consolidated Financial Statements, including
   the supporting facial   statements of major DOD Components. We participated in
   working groups on significant topics in financial reporting for the Army General
   Fund. We also reviewed and commented on related draft audit reports issued by
   AAA, including the audit opinion report and the report on evaluation of internal
   controls and compliance with laws and regulations.

   In addition to the oversight procedures, we performed other procedures necessary
   to determine the fairness and accuracy of the AAA audit approach and conclusions.
   We reviewed findings and recommendations in previous AAA reports.

   Audit Period and Standards. We performed this financial statement audit from
   August 27, 1997, through February 27, 1998, in accordance with auditing standards
   issued by the Comptroller General of the United States, as implemented by the
   Inspector General, DOD. We did not use computer-processed data or statistical
   sampling procedures to conduct the audit.

   Contacts During the Audit. We visited or contacted individuals and organizations
   in the DOD audit community. Further details are available on request.
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center
                                                      Appendix D. Report Distribution




Non-Defense Federal Organizations
Inspector General, Department of Education
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Forces
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
    Committee on Government Reform and Oversight
  House Committee on National Security




                                            9
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
John J. Vietor
Craig W. Michaels
Craig W. Zimmerman
Susanne B. Allen
